<html>
<title> - EXAMINING A CHURCH'S RIGHT TO FREE SPEECH</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


               EXAMINING A CHURCH'S RIGHT TO FREE SPEECH

=======================================================================

                              JOINT HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON HEALTH CARE,
                   BENEFITS AND ADMINISTRATIVE RULES

                                AND THE

                            SUBCOMMITTEE ON
                         GOVERNMENT OPERATIONS

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 4, 2017

                               __________

                           Serial No. 115-29

                               __________

Printed for the use of the Committee on Oversight and Government Reform

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 



         Available via the World Wide Web: http://www.fdsys.gov
                       http://oversight.house.gov
                       
                       
                       
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
26-624 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="197e6976597a6c6a6d717c7569377a767437">[email&#160;protected]</a>                       
                       
                     
                       
                       
              Committee on Oversight and Government Reform

                     Jason Chaffetz, Utah, Chairman
John J. Duncan, Jr., Tennessee       Elijah E. Cummings, Maryland, 
Darrell E. Issa, California              Ranking Minority Member
Jim Jordan, Ohio                     Carolyn B. Maloney, New York
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Justin Amash, Michigan                   Columbia
Paul A. Gosar, Arizona               Wm. Lacy Clay, Missouri
Scott DesJarlais, Tennessee          Stephen F. Lynch, Massachusetts
Trey Gowdy, South Carolina           Jim Cooper, Tennessee
Blake Farenthold, Texas              Gerald E. Connolly, Virginia
Virginia Foxx, North Carolina        Robin L. Kelly, Illinois
Thomas Massie, Kentucky              Brenda L. Lawrence, Michigan
Mark Meadows, North Carolina         Bonnie Watson Coleman, New Jersey
Ron DeSantis, Florida                Stacey E. Plaskett, Virgin Islands
Dennis A. Ross, Florida              Val Butler Demings, Florida
Mark Walker, North Carolina          Raja Krishnamoorthi, Illinois
Rod Blum, Iowa                       Jamie Raskin, Maryland
Jody B. Hice, Georgia                Peter Welch, Vermont
Steve Russell, Oklahoma              Matthew Cartwright, Pennsylvania
Glenn Grothman, Wisconsin            Mark DeSaulnier, California
Will Hurd, Texas                     John Sarbanes, Maryland
Gary J. Palmer, Alabama
James Comer, Kentucky
Paul Mitchell, Michigan

                   Jonathan Skladany, Staff Director
                  Rebecca Edgar, Deputy Staff Director
                    William McKenna, General Counsel
           Kevin Eichinger, Senior Professional Staff Member
                      Jack Thorlin, Senior Counsel
                         Kiley Bidelman, Clerk
                 David Rapallo, Minority Staff Director
     Subcommittee on Health Care, Benefits and Administrative Rules

                       Jim Jordan, Ohio, Chairman
Mark Walker, North Carolina, Vice    Raja Krishnamoorthi, Illinois, 
    Chair                                Ranking Minority Member
Darrell Issa, California             Jim Cooper, Tennessee
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Scott DesJarlais, Tennessee              Columbia
Mark Meadows, North Carolina         Robin L. Kelly, Illinois
Glenn Grothman, Wisconsin            Bonnie Watson Coleman, New Jersey
Paul Mitchell, Michigan              Stacey E. Plaskett, Virgin Islands
                              
                              ------                                

                 Subcommittee on Government Operations

                 Mark Meadows, North Carolina, Chairman
Jody B. Hice, Georgia, Vice Chair    Gerald E. Connolly, Virginia, 
Jim Jordan, Ohio                         Ranking Minority Member
Mark Sanford, South Carolina         Carolyn B. Maloney, New York
Thomas Massie, Kentucky              Eleanor Holmes Norton, District of 
Ron DeSantis, Florida                    Columbia
Dennis A. Ross, Florida              Wm. Lacy Clay, Missouri
Rod Blum, Iowa                       Brenda L. Lawrence, Michigan
                                     Bonnie Watson Coleman, New Jersey
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 4, 2017......................................     1

                               WITNESSES

Ms. Mandi Ancalle, General Counsel for Government Affairs, Family 
  Research Council
    Oral Statement...............................................     8
    Written Statement............................................    10
Ms. Catherine Engelbrecht, Citizen, Cat Spring, Texas
    Oral Statement...............................................    16
    Written Statement............................................    18
Ms. Christiana Holcomb, Legal Counsel, Alliance Defending Freedom
    Oral Statement...............................................    20
    Written Statement............................................    22
Rabbi David Saperstein, Former Director and Counsel, Religious 
  Action Center
    Oral Statement...............................................    29
    Written Statement............................................    31

                                APPENDIX

Letter for the Record of the National Council of Nonprofits, 
  submitted by Mr. Krishnamoorthi................................    68
Statement for the Record of the Ethics and Religious Liberty 
  Commission of the Southern Baptist Convention, submitted by Mr. 
  Jordan.........................................................    96
Statement for the Record of the Baptist Joint Committee for 
  Religious Liberty, submitted by Mr. Krishnamoorthi.............    97
Statement for the Record of Americans United for Separation of 
  Church and State, submitted by Mr. Krishnamoorthi..............   106
Statement for the Record of the Center for Inquiry, submitted by 
  Mr. Krishnamoorthi.............................................   114
Letter of Support for the Free Speech Fairness Act, submitted by 
  Mr. Hice.......................................................   115

 
               EXAMINING A CHURCH'S RIGHT TO FREE SPEECH

                              ----------                              


                         Thursday, May 4, 2017

                  House of Representatives,
         Subcommittee on Health Care, Benefits and 
Administrative Rules joint with the Subcommittee on 
                             Government Operations,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittees met, pursuant to call, at 10:03 a.m., in 
Room 2154, Rayburn The Capitol, Hon. Jim Jordan [chairman of 
the Subcommittee on Health Care, Benefits, and Administrative 
Rules] presiding.
    Present: Representatives Jordan, Meadows, Walker, Hice, 
Issa, Massie, Grothman, DeSantis, Blum, Krishnamoorthi, 
Connolly, Norton, Clay, and Plaskett.
    Also Present: Representative Raskin.
    Mr. Jordan. The Subcommittee on Health Care Benefits and 
Administrative Rules and the Subcommittee on Government 
Operations will come to order.
    Without objection, the chair is authorized to declare a 
recess at any time, and we will certainly have to do that in a 
few minutes, because votes are going to be coming.
    And we want to thank our witnesses, and we'll get to you in 
just a minute. You know how this works. We do the opening 
statements, then we get to your important statements, but even 
before that, the chair notes the presence of our colleague, 
Congressman Raskin of Maryland. We appreciate your interest in 
this topic and welcome your participation today.
    I ask unanimous consent that Congressman Raskin be allowed 
to fully participate in today's hearing. Without objection, so 
ordered.
    We'll do a quick opening statement and then I'll turn to 
our ranking member for the same, and then we'll try and get 
through as many of you as we can before we have to recess for 
votes.
    I want to thank everyone for joining us today. We convened 
this hearing to highlight the First Amendment and examine those 
places in our great country where that right, that right to 
free speech is being stifled and sometimes even silenced by 
government. And unfortunately this is nothing new. In the 
recent past, we've seen the IRS bogging down conservative 
social welfare organizations, that's a nice way of saying it, 
with an endless application process, holding them in 
bureaucratic limbo for years and thereby curbing their First 
Amendment rights. Never forget what they did, systematically 
and for a sustained period of time targeted people for their 
political beliefs. That should not happen in our great country.
    We have seen public universities not allowing conservative 
voices to be heard and we've seen government agencies levy 
enormous fines for small, many times even returned, campaign 
donations for candidates who might not have even made it on the 
ballot.
    The First Amendment is the First Amendment for a reason. 
Our founders knew the ability to criticize our government was 
of paramount importance. We must never forget those great 
words: Congress shall make no law respecting an establishment 
of religion or prohibiting the free exercise thereof, or 
abridging the freedom of speech, or of the press or the right 
of the people to peaceably assemble, and to petition the 
government for redress of grievances.
    To be clear, this freedom doesn't just protect a citizen's 
right to speak out in the town square; it also protects speech. 
Maybe it's a poster you draw, maybe it's where you choose to 
give your money, maybe even what you wear.
    Since our founding, nonprofits, like churches, have had the 
ability to speak freely and educate their membership about 
candidates or policies that align or contradict their interest 
and values. That was until 1954, when as a political 
retribution, then Senator Johnson, with no real debate, had 
inserted language into a tax law that would bar nonprofits from 
speaking in a political manner.
    Since then, churches and other c(3)'s have had to decide 
whether or not to directly violate the law and risk potentially 
losing their tax status altogether or to practice a, quote, 
studied vagueness or self-censorship trying to carefully 
navigate what would or would not draw the attention of the IRS 
speech cop.
    Today we begin what I hope will be a series of hearings on 
the First Amendment and where government agencies may in fact 
be infringing and limiting individual's First Amendment 
liberties. So we look forward to this series of hearings and 
look forward to what we're going to hear today from our 
witnesses.
    And with that, I'd like to recognize our ranking member, 
Mr. Krishnamoorthi.
    Mr. Krishnamoorthi. Thank you, Mr. Chairman. And welcome to 
our witnesses.
    Mr. Chairman, I strongly support the exercise of free 
speech by all, including churches and other charitable 
organizations. In fact, there is a news item today, it has been 
reported that President Trump will issue an executive order to 
redirect or direct the IRS to use its discretion in enforcing 
the Johnson amendment.
    In fact, this order will have little effect. IRS rarely 
brings enforcement actions against houses of worship that 
engage in political activity, but this hearing is about 
something far more significant than the President's actions. 
Only Congress can make changes to the law, and today's hearing 
is about what changes the Republican majority will attempt to 
make to the tax deductibility of political contributions, and 
whether those changes are justified, furthermore, what would be 
the intended and unintended consequences of those changes. That 
will be the subject of this hearing.
    This hearing is not about free speech. It is about a scheme 
to flood political campaigns with dark money. Let's be clear. 
Current law does not prevent churches or charities from 
speaking out on any issue. They can speak about all the hot 
button issues of the day. They can lobby the government. In 
fact, a group of 99 religious and denominational organizations 
recently sent a letter to congressional leadership explaining 
that they are currently able to, and I quote, use their pulpits 
to address the moral and political issues of the day. They also 
can, in their personal capacities and without the resources of 
their houses of worship, endorse and oppose political 
candidates.
    Houses of worship can engage in public debate on any issue, 
host candidate forums, engage in voter registration drives, 
encourage people to vote, help transport people to the polls, 
and even, with a few boundaries, lobby on specific legislation 
and invite candidates to speak.
    I'd ask unanimous consent that the letter written by 99 
religious and denominational organizations be entered into the 
hearing record.
    Mr. Jordan. Without objection, so ordered.
    Mr. Krishnamoorthi. In other words, current law does not 
restrain the freedom of speech of houses of worship. However, 
and this is important, current law does prohibit fat cat 
political spenders from laundering their contributions through 
churches and nonprofits and getting a tax deduction to boot, 
but that is what some in this room want to do. They want to 
funnel dark money into the political system through churches. 
In short, this hearing is about money, not speech, pure and 
simple.
    Over 1,000 national and State nonprofit organizations wrote 
a letter to Congress saying that current law, quote, shields 
the entire 501(c)(3) community against the rancor of partisan 
politics so the charitable community can be a safe haven where 
individuals of all beliefs come together to solve community 
problems free from partisan divisions.
    It screens out doubts and suspicions regarding ulterior 
partisan motives of charitable organizations, as undoubtedly 
would occur if even just a few charitable organizations engaged 
in partisan politics.
    I'd ask unanimous consent that the letter written to us by 
nonprofit organizations be entered into the hearing record.
    Mr. Jordan. Without objection, so ordered.
    Mr. Krishnamoorthi. Given that nonprofit organizations, 
including charities, churches, and other houses of worship 
support existing law, which prevents churches and charities 
from becoming politicized, why would anyone want to alter the 
existing law? The answer? To extend the avenues through which 
dark money can flow into political campaigns. That is what this 
hearing is really about. The consequences would be severe.
    According to the nonprofit's letter, allowing political 
money into churches and nonprofits would, and I quote, damage 
the integrity and effectiveness of all charitable 
organizations, and spawn litigation as innovative partisans 
seek to expand gray areas in the proposed legislation.
    In addition, the proposal, I quote, would damage the 
Federal Treasury as people take tax deductions for political 
contributions they could then funnel through charitable 
nonprofits, undercut fair elections by providing a loophole to 
avoid campaign contribution disclosure laws, and empower 
politicians to exert pressure for access to charitable 
foundation assets and charitable funds for their own partisan 
campaigns rather than the public good.
    So today's hearing is not about free speech, it is about a 
plan to inject more dark money in politics through churches and 
nonprofit organizations. This is a very, very bad idea. It will 
have a corrosive effect on the churches that become super-PACs 
and passthroughs for these campaign contributions and it will 
further corrode our democracy.
    Thank you, Mr. Chairman. I yield back.
    Mr. Jordan. I thank the gentleman.
    I now recognize the chairman the Subcommittee on Government 
Operations, the gentleman from North Carolina, Mr. Meadows.
    Mr. Meadows. I thank the chairman. I thank him for his 
leadership. I thank all of you for being here.
    Rabbi, it's good to have you back, I guess, in your 
nonofficial capacity, but it's great to have you back as well.
    I couldn't disagree more with the ranking member in terms 
of the intent. You know, when we look at this particular issue, 
it's about making sure that the churches have no voice at all. 
And if we do not address it, the way that it goes, and many of 
you can speak to this far more eloquently than I can. But this 
is not about dark money. This is not about anything other than 
free speech and making sure that what has historically been the 
moral compass of this country from its very founding continues 
to be the voice for the American people, and so I would 
disagree with the characterization that is there.
    As we look at this, I look forward to hearing your expert 
testimony. And I'm going to yield the balance of my time to the 
gentleman from Georgia, Mr. Hice.
    Mr. Hice. Thank you very much, Chairman Meadows and 
Chairman Jordan for having this joint hearing today. This is a 
critically important topic. It has to do with the Federal Tax 
Code and the prohibitions therein directed towards 501(c)(3), 
organizations including churches and nonprofits and charitable 
organizations, from engaging in any political speech. It's been 
referred to as the Johnson amendment.
    As the chairman referred to earlier, this amendment is an 
accident in our Nation's history. It came about, even under the 
full admission of the IRS, as an attempt to get back to the 
opposition of a legislator. That's where this came from, and it 
has been used now for over 60 years as a bully stick to 
intimidate churches and charitable organizations into silence.
    Most of us are not aware of the selfish motive behind this 
amendment. Most people probably think that this is part of our 
Tax Code because it's rooted in the Jeffersonian principle of 
separation of church and State, but that's not where it came 
from. While it's true that our founders believed that our 
country should not establish a national church, they did 
establish the First Amendment, which prohibits any law from 
curbing the free exercise of religion, which has as its core 
the freedom of speech.
    So let's agree that even if the Jeffersonian wall exists, 
which today is, in my opinion, widely misinterpreted and 
misapplied, but even if that wall exists, it works both ways. 
When government acts as the gatekeeper of speech, there is no 
free speech.
    The IRS should not be allowed to violate the Constitution. 
And for over 60 years now, they have done just that by being 
the gatekeeper, unfairly targeting pastors, churches, 
nonprofits, et cetera, with the tax exempt status of those 
organizations being used as leverage to get these organizations 
not to speak on certain issues.
    Prior to being a Member of Congress, I was a pastor. I know 
full well the extent to which the intimidation and the cloud of 
doubt that is laid over our heads on this issue censors so many 
individuals from being engaged. And not only is this whole 
thing unconstitutional, but the Johnson amendment itself is 
extremely vague, which results in many people and organizations 
just censoring themselves right out of any involvement.
    And our system of government does not work without 
involvement of the people, and yet the Johnson amendment has 
such a chilling effect, through fear and intimidation from IRS 
threats, even the U.S. Supreme Court acknowledged the harm that 
is produced by the vagueness of this law. And they stated in 
Virginia v. Hicks that many persons will choose simply to 
abstain from protected speech, harming not only themselves, but 
society as a whole, and that is indeed what has happened. A 
church's mission is undercut, not improved, when the IRS or the 
government comes in and begins editing what can and cannot be 
said.
    So let me be very clear on my final point, Mr. Chairman. 
Politicians should not get a free pass when it comes to moral 
scrutiny, and that takes place largely as people have the 
freedom to express their opinions and to weigh that scrutiny up 
to their religious beliefs.
    The absence of the Johnson amendment does not mandate nor 
certainly license or allow a church to become a political 
action committee. The issue plainly is the choice to speak 
according to the dictates and convictions of one's heart 
without interference, or threat, or punishment, or harassment 
from our government.
    To speak the conscience of an issue, especially in its 
relationship to the exercise of religion, is a cherished belief 
and foundation that we share as Americans, and it's simply not 
the role of government to police speech.
    While this is not a legislative hearing, it is for these 
reasons that Majority Whip Steve Scalise and I introduced H.R. 
781, the Free Speech Fairness Act, which would provide a carve-
out to the Johnson amendment and allow 501(c)(3) organizations 
to engage in political discourse in the normal course of 
business with de minimus associated expenses.
    And while I greatly appreciate the President's executive 
order today directed to the Department of the Treasury and 
Justice on the Johnson amendment, I believe it's time that we 
rid our Nation of this unconstitutional law by way of 
legislative action.
    And with that, I look forward to this hearing. Thank you 
for being here today. And I yield back.
    Mr. Jordan. I thank the gentleman.
    I thank Mr. Meadows as well and Mr. Hice and--Congressman 
Hice for his leadership on this issue for a number of years and 
his involvement with this particular issue.
    I now recognize the gentleman from Virginia, Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman. I'm sure the title 
of this hearing, Examining a Church's Right to Free Speech, 
didn't mean to exclude my Hindu colleague next to me or my 
Jewish colleague in front of me, Mr. Raskin, I'm sure it was 
just an oversight, because we're not just talking about 
churches.
    I'm a Roman Catholic. I studied for the priesthood too, Mr. 
Hice, and my church is protected by this amendment. Your church 
wasn't accused of being a foreign entity or having allegiance 
to a foreign leader. Mine was. Your church has never been 
questioned in America about whether someone was qualified to be 
President of the United States. Mine was.
    We've suffered the sting of prejudice, religious prejudice. 
And, frankly, if we'd been seen as a political agent, that 
prejudice would have magnified exponentially. So I have a 
different point of view based on my own experience growing up 
in Irish Catholic Boston as a kid at 10 years old having to 
read a headline in Time Magazine and Newsweek Magazine asking 
the question, can a Catholic be President, meaning, our loyalty 
was subject to question. And that gentleman who became 
President had to go down to Texas and defend himself in front 
of a group of protestant ministers. I don't want to return to 
that era. If people want to express themselves morally, great.
    There's no evidence proving that any houses of worship are 
unable to exercise free speech or that any member of a house of 
worship, including clergy, aren't able to speak freely on any 
social and moral issue they want to address. In fact, we hear a 
lot from them.
    Certainly Ms. Ancalle, if I'm pronouncing your name, right, 
I've been with Tony Perkins on a platform. He didn't seem 
inhibited to me. In fact, despite what the misleading title of 
today's hearing is meant to suggest, the issue is not one of 
free speech.
    Under current law, churches and other houses of worship can 
speak freely and engage in partisan political activity. That's 
under current law. This hearing is not about free speech, it's 
about money. Under current law, churches do not pay taxes. 
Individuals who donate can claim deductions for their 
donations. Churches do not have to reveal publicly who they 
are.
    If the Johnson amendment were to be repealed, as some are 
suggesting, 501(c)(3) tax exempt entities and their 
contributors would apparently be allowed to participate in 
political campaigns with tax deductible donations. Under their 
new status, America would have more than 340,000 new political 
action committees.
    The new PACs that self-identify those houses of worship 
could maintain the anonymity of their donors, and the size of 
each donor's contribution would remain a secret. The repeal of 
the Johnson amendment would not change the tax deductibility of 
donations of houses of worship. This means taxpayers would be 
subsidizing partisan political contributions. In other words, 
my colleagues are proposing to allow tax deductions now for 
those political contributions.
    Congress has examined this issue before, and ultimately 
decided to rescind the tax deductibility of political 
contributions. That was during the Reagan years. Under 
Republican proposals, billionaires like Sheldon Adelson or the 
Koch brothers could give unlimited contributions to houses of 
worship to be directed toward their favorite candidates, and 
democratic-leaning donors could do the same for Democrats, and 
all those billionaires could claim tax deductions for their 
political contributions, what they cannot do now.
    Of course, this would also put the ministers and leaders of 
houses of worship, I think, in untenable positions, because now 
they're not seen as moral men or women of faith, they're seen 
as political directors, partisan political directors. And I 
think in the long-run, be careful what you ask. That will 
undermine religion in America in terms of confidence of the 
public.
    They would be clergy members and simultaneously treasures 
of PACs, they would be faith leaders and political operatives 
soliciting and maintaining and distributing millions of dollars 
to political campaigns. How would clergy members balance these 
competing roles and how would churches, mosques, temples, 
synagogues, meeting houses, and cathedrals balance their 
members' interests in questions of faith and questions of 
campaign donations?
    Would they self-select into Republican and Democratic 
houses of worship so you know if this denomination is speaking, 
it is a Republican, and if this one's speaking, it is a 
Democrat? That's what happened in the Civil War, and it took 
100 years to heal those wounds.
    What we're really discussing is opening the floodgates to 
allow the flow of unlimited amounts of tax deductible money 
from anonymous donors into political campaigns to houses of 
worship and diluting the mission and purpose of those religious 
institutions all under the guise of free speech. I believe we 
should keep those floodgates firmly closed. According to a 
February 2017 Pew Research study, thousands of houses of 
worship as well as the public at large agree.
    Thank you, Mr. Chairman.
    Mr. Jordan. I thank the gentleman.
    I want to thank you. And we'll hold the record open for 5 
legislative days for members who would like to submit a written 
statement.
    Let's now turn to our panel of witnesses. Again, I want to 
thank you all for being here this morning, and I'm pleased to 
welcome Ms. Ancalle.
    Ms. Ancalle. Ancalle.
    Mr. Jordan. Ancalle. All right. General counsel for the 
Family Research Council. Thank you for being with us.
    We have Ms. Catherine Engelbrecht for citizens--a citizen 
of Cat Spring, Texas.
    And we have Ms. Christina Holcomb, legal counsel for the 
Alliance Defending Freedom.
    And we have Rabbi David Saperstein, former director and 
counsel of Religious Action Center.
    Welcome to you all.
    And pursuant to committee rules, I'd like you to now stand, 
raise your right hand. We'd have to swear you in, and then 
we'll get right to our testimony.
    Do you solemnly swear or affirm that the testimony you're 
about to give will be the truth, the whole truth, and nothing 
but the truth, so help you God?
    Let the record show that each of our witnesses answered in 
the affirmative.
    And let's go to Ms. Ancalle. You you're familiar how it 
works? You get 5 minutes, more or less; prefer a little let, 
but that's fine. You take your 5 if you want, and then we'll 
move right down the dais there.

                       WITNESS STATEMENTS

                   STATEMENT OF MANDI ANCALLE

    Ms. Ancalle. Chairman Jordan and members of the 
subcommittee, thank you for convening this hearing regarding 
the importance of protecting free speech rights of churches and 
other nonprofit organizations and their leaders.
    Churches and other 501(c)(3) organizations have important 
roles in society: helping the sick, feeding the poor, 
counseling the downtrodden, ministering to people in need. 
Because of their special role in society, they are tax exempt.
    For almost 200 years, their work and tax exempt status did 
not compromise their ability to speak freely about political 
candidates and issues; that is, until 1954, when then Senator 
Lyndon Johnson used his political power to weaken organizations 
politically opposed to him by conditioning nonprofit 
organizations' tax exempt status on their remaining silent on 
political candidates.
    The Johnson amendment bars 501(c)(3) organizations from, 
quote, participating in or intervening in, including the 
publishing or distributing of statements, any political 
campaign on behalf of or in opposition to any candidate for 
public office.
    Since its passage, the Johnson amendment has been used to 
muzzle and censor pastors and leaders of nonprofit 
organizations and to chill the political speech of tax exempt 
organizations, religious and nonreligious, on both sides of the 
aisle in a variety of ways. No one knows precisely what spoken 
or written comments on a candidate will draw an investigation 
by the IRS. This vagueness chills free speech.
    In 2005, All Saints Episcopal Church in California received 
a letter from the IRS, because in 2004, a pastor there 
criticized President George Bush and the Iraq war. After 2 
years of investigation, in 2007, the IRS closed the case 
without revoking the IRS tax exempt letter, but indicated it 
thought the pastor's statements violated the law. I should note 
that FRC strongly opposed the Bush administration's targeting 
of All Saints Episcopal Church.
    In addition, the IRS has a history of enforcing the law in 
cases only to later refund the penalty paid by the tax exempt 
organization. For example, in 2004, an organization called 
Catholic Answers posted two E-Letters questioning whether then 
presidential candidate John Kerry, also a Catholic, should 
present himself for Holy communion, because of his position on 
abortion. The IRS investigated the comments and imposed excise 
taxes against the organization. However, the IRS later refunded 
the tax with interest, finding the organization's political 
activity was, quote, not willful and flagrant.
    This inconsistency causes confusion for tax exempt 
organizations, is a wasteful use of IRS resources, and is why 
501(c)(3) nonprofit organizations should be able to engage in 
low cost political communications free from the threat of 
government prosecutions and harassment.
    Pastors have historically been heavily involved in 
political matters. Since the birth of our Nation, pastors and 
churches have been at the forefront of shaping public debate 
and voters' choices regarding their public servants. This began 
in 1776 with the black robe regiment of pastors, who also 
served as militarily leaders, and was forged during the 
desegregation movement when pastors like Dr. Martin Luther 
King, Jr., spoke out forcefully from the pulpit on political 
matters.
    Now, some pastors and organizational leaders may favor the 
Johnson amendment. However, these pastors currently have the 
freedom to operate how they see fit. It is pastors who wish to 
make political campaign statements who are being muzzled. 
Pastors and nonprofit leaders who wish to speak out about 
political candidates should be free do so. It is imperative 
that the free speech rights of pastors and nonprofit leaders be 
restored.
    In order to restore the First Amendment free speech rights 
of nonprofit organizations, including churches, it is necessary 
for Congress to act. February 1 of this year, Senator Lankford 
and Representatives Scalise and Hice reintroduced the Free 
Speech Fairness Act to roll back the unconstitutional impact of 
the Johnson amendment while still preventing churches from 
becoming about the money or political action committees.
    The Free Speech Fairness Act amends the Johnson amendment 
to allow for political campaign speech that is made in the 
ordinary course of a 501(c)(3) organization's regular and 
customary activities, so long as the activities carry out the 
tax exempt organization's purpose and so long as the 
organization does not incur more than de minimus incremental 
costs or trivial costs for the activity.
    Amending the Johnson amendment in this way will allow 
501(c)(3) organizations, religious and nonreligious, 
conservative and liberal, and regardless of their 
organizational mission, breathing room to communicate about 
candidates for public office. At the same time, the law will 
continue to prevent tax exempt organizations from financing a 
candidate or buying political advertisements to get the 
candidate elected.
    Doing good in society should not engender a muzzle and the 
political speech rights of churches and nonprofit leaders 
should be restored by rolling back the Johnson amendment 
through the Free Speech Fairness Act.
    Thank you.
    [Prepared statement of Ms. Ancalle follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Jordan. Thank you so much.
    Ms. Engelbrecht, you're recognized for your 5 minutes.

               STATEMENT OF CATHERINE ENGELBRECHT

    Ms. Engelbrecht. Thank you. Good morning, Mr. Chairman and 
members of the committee. My name is Catherine Engelbrecht, 
citizen of Cat Spring, Texas. I am also the founder of True the 
Vote, a national 501(c)(3) organization dedicated to the 
advancement of voters' rights and election integrity.
    Given that the topic for today's hearing is Examining the 
Church's Right to Free Speech, I particularly thank you for the 
invitation to participate, because although I am A Christian, I 
am not here to speak on behalf of the church. As it happens, 
religious organizations and charitable organizations, like True 
the Vote, share the same nonprofit class designation, which 
means we are held to the same standard in the eyes of the IRS.
    So that is what brings me to this chamber, to share the 
story of my experiences with the Internal Revenue Service, an 
agency that I have found to be so emboldened through the years 
of partisan exploitation, that it now presumes itself to be 
America's arbiter of free speech.
    So in 2010, I filed a 501(c)(3) nonprofit application with 
the IRS on behalf of True the Vote. Since that filing, my 
private businesses, my nonprofit organization, and I personally 
have been subjected to more than 15 instances of audit, 
inquiry, or investigation by Federal agencies, including the 
IRS, OSHA, the ATF, and the FBI. These inquisitions began only 
after my filing of True the Vote's application for tax 
exemption, an act that unwittingly put me and my organization 
on the radical radar of a political machine that seemed to 
place its own survival above the rights of its citizens.
    Politicians have long used the IRS to intimidate their 
enemies, and an entrenched agency bureaucrat is all too willing 
to play the enforcer. So it is now, and so it was in 1954 when 
the Johnson amendment became part of the IRS revenue code.
    Today, abetted by the Johnson amendment, the IRS can and 
does dictate who can speak, what they can say, and to whom they 
can say it. Under the current code, if your 501(c)(3) 
organization operates to further purposes of religion or 
charity or science or education, then this vaguely worded 
passage baked into a 46,000-page Federal code lays in wait for 
you to muzzle you and to rescind your nonprofit status should 
you say something that the government doesn't like.
    In my case, the IRS sought to control my organization's 
speech from the outset even before they had given us our 
501(c)(3) tax designation. In a letter dated February 8, 2012, 
one of the many letters we received from the IRS over nearly 3 
years of our inextricably protracted application process, the 
IRS commanded True the Vote to submit the time, date, location, 
and to whom we would be delivering detailed contents of 
speeches for all events, all events that we had held since the 
inception of the organization and for every future event to be 
held over the next 2 years.
    They said that this information was necessary in order to 
complete their consideration of our application for exemption. 
It was necessary, in their view, to examine everything we had 
ever said and to control everything we had yet to say. We 
declined to comply, and in return, our exemption was withheld 
for another year and a half.
    Finally, we had no choice but to file a lawsuit against the 
IRS in the hopes of bringing an end to the abuse. This battle 
has now gone on for 7 very long years, and it continues to this 
day. In fact, just 3 weeks ago, my attorney and I went back 
into court to face 21 IRS attorneys and staffers, who in legion 
continued to argue that they've done nothing wrong.
    And that is why the Johnson amendment must be repealed, and 
by extension, why the Tax Code must be overhauled, because 
bureaucrats must be stripped of their deluded belief that they 
are sovereign, because they are not.
    An American citizen's right to free speech is immutable. 
Tax exempt status cannot be given or taken away in exchange for 
that right. That's not how the Constitution should work.
    True the Vote's story is a clear example of how the Johnson 
amendment purposely was used to silence opposition, but make no 
mistake, we are one of many who live with this ever present 
threat. It's the reason nonprofits across this country are fast 
becoming endangered species. They are fearful of organizing. 
People are scared of their government, and that is just what 
the autocratic deep state wants. Freedom is anathema to a 
government body that operates with impunity outside of our 
representative system.
    And so my recommendations to you are these. First, repeal 
the Johnson amendment, and do not replace it. Any replacement 
is only an opportunity to create more confusing loopholes.
    Next, amend the tax code to include a policy which clearly 
and unquestionably prohibits viewpoint discrimination, and 
holds accountable any government employee or contractor who 
violates that policy. Make it known that the old ways have come 
to an end.
    Free speech must be preserved. It's worth testifying to, 
it's worth fighting for, because in the end, this is all about 
liberty, and it is never wrong to return liberty to the people.
    Thank you, Mr. Chairman.
    [Prepared statement of Ms. Engelbrecht follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Jordan. Well said. Thank you, Ms. Engelbrecht.
    Ms. Holcomb.
    We're going to try--they just called votes, but I think we 
can get through the next--our next two witnesses and then get 
to votes.

                STATEMENT OF CHRISTIANA HOLCOMB

    Ms. Holcomb. All right. Mr. Chairman----
    Mr. Jordan. Hit that button.
    Ms. Holcomb. Excuse me. Let's try this again.
    Mr. Chairman and members of the committee, for the first 
200 years of our Nation's history, America's churches enjoyed 
their right to free speech. They guided their people on the 
important issues of their day, religious, cultural, and, yes, 
even political. They applied scripture to every aspect of life, 
including candidates and elections.
    But since 1954, that right has been denied to America's 
churches. With one last-minute amendment, one voice vote, and 
one stroke of the pen, the church's voice was silenced, and 
instead, one of the most powerful and unaccountable 
bureaucracies in the Federal Government, the IRS, was given the 
authority to censor the church.
    For over 60 years, the Johnson amendment has caused pastors 
to chill their speech. They're fearful. They want to faithfully 
preach the whole council of God, but don't want to risk 
intrusive IRS audits, crippling financial penalties, and even 
their church's tax exempt status, so they stay silent.
    Alliance Defending Freedom has been involved in the effort 
to free the pulpit from IRS censorship for nearly a decade now. 
We've concluded that not only does the Johnson amendment harm 
real people, real churches, but it violates the Constitution as 
well, and I want to highlight just two of those constitutional 
violations.
    First, the Johnson amendment is unconstitutionally vague. 
No one, including tax experts, legal experts, and certainly not 
busy pastors, know with any real certainty where the boundaries 
of that law are. Of course, explicit candidate endorsements are 
prohibited, but as explained in greater detail in my written 
testimony, just about anything beyond that is a mystery.
    The IRS guidance on this issue is increasingly vague and 
confusing. And to make a bad situation worse, IRS enforcement 
has been sporadic and inconsistent. Some churches openly 
endorse or oppose political candidates, and the IRS says 
nothing. Other churches make a passing reference to how Jesus 
might view a particular policy issue, and they trigger IRS 
harassment and audits. The Constitution requires that its 
citizens be reasonably informed of what the law requires, and 
the Johnson amendment fails this standard abysmally.
    Second, the Johnson amendment violates free speech. 
Churches have a right to speak freely without fearing 
government censorship. No one surrenders their constitutional 
rights simply by walking through the church doors, and no 
church should be forced to surrender its free speech in 
exchange for a tax status.
    The IRS has been transformed into the speech police, 
censoring even what a pastor preaches from the pulpit. For 
example, as my colleague mentioned earlier, a pastor at All 
Saints Episcopal Church in Pasadena, California, preached a 
sermon that included critiques of the President's policies, 
based on that minister's deeply held religious convictions. The 
IRS pounced and started harassing the church with an 
investigation, forcing that church to hire tax attorneys to 
defend itself.
    But then after nearly 2 years of this ordeal, the IRS 
abruptly closed out the file without explanation. It left the 
church with no greater clarity on the legal boundaries of the 
law than when the whole ordeal started. All of this has 
resulted in pervasive chill and self-censorship among America's 
churches, in violation of their right to free speech.
    In conclusion, the status quo is untenable, and America's 
churches are looking to you, their elected Representatives, for 
help. We cannot leave this to the judicial branch to resolve. 
No court has yet ruled on the constitutionality of the Johnson 
amendment's application to a pastor's sermon, likely because 
Federal law allows the IRS to control when and with whom and 
how it gets into Federal court.
    Since 2008, Alliance Defending Freedom has encouraged a 
legal challenge to the Johnson amendment through our Pulpit 
Initiative, but the IRS has refused. So it's time for Congress 
to act.
    The Free Speech Fairness Act is the best solution that we 
at Alliance Defending Freedom have seen to these constitutional 
problems. The bill creates a much needed relief valve for free 
speech, it allows churches to once again speak as they would in 
the ordinary course of their ministries without fearing IRS 
retribution, and such a legislative fix would allow America's 
churches to once more guide their congregations, as the 
Constitution permits and as their religious beliefs require.
    Thank you.
    [Prepared statement of Ms. Holcomb follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Jordan. Thank you.
    Rabbi, fire away.

              STATEMENT OF RABBI DAVID SAPERSTEIN

    Rabbi Saperstein. Mr. Chairman, Ranking Member, and members 
of the committee, really I'm honored to be here with you today.
    And I thank you all for your support of my work as serving 
as the U.S. Ambassador for International Religious Freedom. I 
do want to single out Mr. Meadows who is extraordinary in the 
work that he has done in that field.
    Let me just lift out a few of the key concerns here, and 
the concerns for the houses of worship, for the clergy. First, 
how divisive this will be to bring into our houses of worship 
the notion of endorsing candidates and dividing those houses of 
worship along political lines. We have enough divisions of the 
theology, music, sermons, et cetera, without adding this into 
the mix here.
    Where do you draw the line? What is a pastor to do if a 
congregant who is a major donor says, I'll give you a gift this 
year, but only if you endorse such a candidate? What do you do 
if the pastor endorses one candidate who he thinks is worthy, 
and then someone else wants someone else, or a member of the 
congregation asks? What if two members of their congregations 
are running against each other, and this is a pastor having 
responsibilities to both sides? What do you do in these 
situations? It takes us down a very divisive and dangerous path 
in terms of the well-being of congregations, which is why 
there's so many polls that show overwhelmingly clergy don't 
want this.
    National Association of Evangelicals 2 months ago in its 
evangelical leaders poll, 90 percent don't want this. The 
LifeWay Christian polling entity polls, 90 percent of clergy 
don't want this. You can go down the polling data. 66 percent 
of Trump voters don't want it, 62 percent of identified 
Republicans say this would be bad. That shouldn't be 
determinative, but it should--you should, I would hope, ask, 
why, and how do we deal with what their concerns are.
    Secondly, do we agree on the description there? I don't 
know where the line is between the argument that right now 
pastors have and clergy have, of all kind, free speech and 
churches have free speech in the sense they can talk about 
issues, they can speak out on moral issues on the day, on 
political issues, they can talk about issues that candidates 
raise, they can talk about anything that they want to do.
    They can hold candidate forums, they can get people to the 
polls, they can do all kinds of activities as individuals. 
Clergy can do what everyone else can do, endorse, oppose a 
candidate, run for office, many clergy serve in office while 
they're serving their churches. I understand what this debate 
is over, but it sound to me it is over a very limited area 
where it's being described as being a pervasive area. Do we 
agree on that limit? And if so, then it's a respectful 
difference between those who say this is speech and those who 
say you have that speech. What isn't involved is the right of 
people to do that electoral work with subsidies from the 
government.
    The Supreme Court has held that tax exemptions and 
deductible gifts constitute subsidies by the government. That 
is the law right now. And it has upheld that such restrictions 
apply to what we're talking about today.
    If that is the debate to us, this is about subsidies and 
whether or not people have a right to have subsidies. Dr. King 
served his entire career with the Johnson amendment in effect. 
He was never restrained in what he could do, he never 
complained about infringements of his religious freedom because 
of the Johnson amendment, and I don't know many clergy who do 
in that regard, other than the question whether they can 
endorse candidates with government subsidies paying for it.
    Third, this idea of whether or not, if you do away with the 
Johnson amendment altogether, whether nonprofits and churches 
become slush funds. Do we all agree that these would be 
campaign contributions that could be given through a house of 
worship getting a tax deduction with no reporting to the 
government, or are we going to take away some of the exemptions 
that houses of worship now have and force them to report the 
contributions of their members?
    Finally, there are these efforts to restrict this to just 
speech, but what kind of speech are we talking about? Just 
sermons? Is de minimus--Mr. Hice, is de minimus one sermon, is 
it one sentence in every sermon, is it 50 sermons, is it 50 
bulletin articles, is it 50 emails going out? That doesn't cost 
additional money to do it anyway. De minimus will be no clearer 
than the current system is in that regard.
    The 501(c)(3) partisan restrictions are not just bad--are 
protective of our religious communities, and changing that is 
not just bad legal policy, it is bad religious policy as well.
    And I urge you to maintain the Johnson amendment that 
served so well to protect our nonprofits and houses of worship 
from being turned into campaign slush funds, and dividing their 
members along partisan political lines.
    [Prepared statement of Rabbi Saperstein follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Jordan. Thank you, Rabbi.
    The committee will stand in recess 30 minutes more or less. 
And you can--we've got coffee and stuff, you can--you can--but 
we'll be back in 30-minutes.
    [Recess.]
    Mr. Jordan. The committee will reconvene.
    Rabbi, we believe in free speech so much we were waiting 
for you to speak to the press. That's our commitment to the 
First Amendment.
    So we're going to start with the gentleman from Georgia, 
Congressman Hice.
    Mr. Hice. Thank you, Mr. Chairman.
    Ms. Holcomb, your organization, an outstanding group, 
actually put forth the Pulpit Initiative and Pulpit Freedom 
Sunday. As you know, I was one of the original pastors that 
were a part of that group in 2008. Can you briefly explain to 
this committee what that event is and what's its purpose?
    Ms. Holcomb. Absolutely. Mr. Chairman, members of the 
committee, thank you.
    The Pulpit Initiative was designed to bring this issue to a 
head and to provide a legal challenge to the Johnson Amendment 
because, as you know, and I'm sure you're well aware, Federal 
law prohibits us from affirmatively suing the IRS outright to 
deal with this issue.
    So we started what's called Pulpit Freedom Sunday where we 
encourage pastors across the Nation to exercise their 
constitutional rights to free speech and the free exercise of 
religion. And many of them endorse or oppose candidates on that 
day, and a number of them provide courtesy copies of their 
sermons to the IRS and send them in so that they're fully aware 
of what's going on.
    We've encouraged, as I mentioned, a legal challenge, 
wanting to go head-to-head with the IRS on this issue and allow 
a court to rule on the Johnson Amendment's constitutionality or 
a lack thereof, in our opinion, but the IRS has been unwilling 
to take the bait.
    It did harass and intimidate one of our pastors for 
approximately 11 months of an audit, and we defended him 
throughout that process. But, otherwise, it has been unwilling 
to allow a Federal court to address this issue, which is why 
we're now recommending that Congress go ahead and fix that 
which was enacted over 60-plus years ago.
    Mr. Hice. So why do you believe the IRS did not respond?
    Ms. Holcomb. It's all speculation. I think it could be a 
number of different things. But one thing is, the IRS may 
recognize that it's on tenuous constitutional grounds. It 
probably does not want to have a Federal judge actually examine 
the constitutional violations, both those that I've mentioned 
in my written testimony, but those that I did not. In addition 
to vagueness and free speech, the Johnson Amendment is 
constitutionally questionable in the areas of free exercise in 
the Establishment Clause, potentially even Federal RFRA.
    So I think that would be one primary reason why the IRS 
might be reluctant to allow a court to look into this.
    Mr. Hice. So you believe it is an unconstitutional code?
    Ms. Holcomb. Absolutely, it's an unconstitutional code, 
and, frankly, has no legitimate basis in law either, having 
been enacted as a political ploy.
    Mr. Hice. Okay. Ms. Ancalle, let me ask you about the 
vagueness aspect of the Johnson Amendment. How is that 
complicating the interpretation?
    Ms. Ancalle. That's a great question. I'm sure you're very 
aware as a pastor of the fact that many activist organizations 
actually use that vagueness and the lack of consistency with 
how the IRS has enforced this statute to chill the speech of 
pastors, to threaten them into submission, essentially scaring 
pastors out of making political statements generally, not just 
about political candidates, but about, as Mr. Connolly 
mentioned, moral issues and Biblical issues that really affects 
the life of the church and the life of individual believers.
    Mr. Hice. What about the accusation that somehow this, if 
it's repealed or changed in any way, the Johnson Amendment, 
that it would make churches become political action committees 
where dirty money could be laundered?
    Ms. Ancalle. Well, the Free Speech Fairness Act is specific 
in that it doesn't allow more than de minimis incremental 
costs. So the de minimis factor is not related to the length of 
the statement, is not related to how many times the statement 
is made, but it is related to the cost of the statement. So the 
whole purpose of that provision within the Free Speech Fairness 
Act, as I understand it, is to eliminate the ability for 
churches to become political action committees.
    Mr. Hice. How would you respond to that, Ms. Holcomb?
    Ms. Holcomb. I would absolutely agree. With the Free Speech 
Fairness Act, it is extremely simple. All it does is create a 
release valve for free speech so that 501(c)(3) organizations, 
particularly churches, which is my primary concern in this 
instance, would be allowed to once again fully exercise their 
First Amendment freedom to speak freely without having the IRS 
burst through their church doors and censor their sermons.
    Mr. Hice. So it's not legal for churches to give candidates 
or is it?
    Ms. Holcomb. No, no.
    Mr. Hice. Give money to candidates.
    Ms. Holcomb. Absolutely not.
    Mr. Hice. Or would that change?
    Ms. Holcomb. It would not change. The Free Speech Fairness 
Act does not in any way eviscerate current campaign finance 
laws, so those concerns really are not applicable in this 
context.
    Mr. Hice. And, Ms. Engelbrecht, let me ask you, are you 
aware that the veterans organizations are also 501(c)(3) 
organizations that are both tax exempt and receive charitable 
donations?
    Ms. Engelbrecht. There's all kinds of organizations that 
are (c)(3)s beyond just churches, and that's one of the reasons 
this is such a critical debate.
    Mr. Hice. Okay. So my question here has to come with 
fairness of law. Is there a discrepancy in the way that 
different 501(c)(3)s are treated?
    Ms. Engelbrecht. I would hope not. All I can say is in our 
experience the Johnson Amendment seemed to be a gateway to a 
type of abuse that I don't think any American citizen should 
have to endure, including visits from the Domestic Terrorism 
Unit of the FBI, the repeated audits by the IRS, OSHA showing 
up, Bureau of Alcohol, Tobacco and Firearms showing up twice.
    Mr. Hice. Let me ask Ms. Ancalle or this whole committee, 
there seems to me to be a broad discrepancy in the way 
501(c)(3)s are treated here and there's direct discrimination?
    Ms. Holcomb. I think that's exactly right, if I may jump 
in. You've got some 26 different organizations that are exempt 
under the IRS code. Only (c)(3)s have this explicit speech 
restriction. And, frankly, it's unfair, and that's what the 
Free Speech Fairness Act is designed to do, is restore that 
fairness for all.
    Mr. Hice. Thank you, Mr. Chairman.
    Mr. Jordan. Thank the gentleman.
    I now recognize the ranking member for his 5 minutes.
    Mr. Krishnamoorthi. Thank you, Mr. Chair.
    Despite the title of this hearing, the Tax Code does not 
constrain the freedom of speech of churches and other houses of 
worship. In fact, the majority has studiously avoided any 
extensive discussion of the real purpose of taking away the 
Johnson Amendment, which is to allow money, political money, to 
enter the system through houses of worship.
    Rabbi Saperstein, churches and members of the clergy are 
free to speak out on any social issue, aren't they?
    Rabbi Saperstein. They are indeed.
    Mr. Krishnamoorthi. And acting in their personal 
capacities, members of the clergy, like all members of houses 
of worship, can legally endorse or oppose political candidates. 
Isn't that true?
    Rabbi Saperstein. They can. They do. They can run for 
office. They can do anything politically that anyone else can 
do.
    Mr. Krishnamoorthi. Certainly. In fact, acting in their 
personal capacities, members of the clergy, like all members of 
all houses of worship, can even serve as the treasurers of 
political campaigns, or PACs, can't they?
    Rabbi Saperstein. Yes.
    Mr. Krishnamoorthi. Now, let's be clear, the only thing 
that the current tax laws restrain is the use of churches to 
collect and funnel tax-deductible contributions from anonymous 
donors into political campaigns.
    Folks, churches and houses of worship have a special place 
in the Tax Code. They don't have to disclose their donors, and 
those donors can take deductions for their contributions to 
houses of worship. That is the special place that houses of 
worship have in our Tax Code.
    We have a rich history of churches and other houses of 
worship engaging in pressing social and moral issues. For 
example, Tony Perkins with the Family Research Council has 
eloquently written, and I quote: ``Dr. Martin Luther King, Jr., 
spoke out forcefully from the pulpit on political matters that 
required change, and we are all glad he did so. It benefits all 
of us to have such change agents speaking freely from the 
pulpit. Since the birth of our Nation, pastors and churches 
have been at the forefront of shaping public debate and our 
choice of public servants. What would America look like today 
had King or Reverend Lyman Beecher, a leading abolitionist, 
been muzzled by the IRS?''
    Of course, the laws that the Family Research Council seeks 
to alter have been part of the Tax Code since 1954, before even 
the Montgomery bus boycott which Dr. King helped to lead.
    Rabbi Saperstein, did tax laws prevent Dr. King from 
speaking out and standing up during the civil rights movement?
    Rabbi Saperstein. It certainly did not. And, as I said, the 
Johnson Amendment was in effect the entire time.
    Mr. Krishnamoorthi. And you're absolutely correct about 
that. Our tax laws do not restrain the freedom of speech. 
Perhaps that is why 99 faith and denominational groups wrote a 
letter to Congress opposing efforts to allow dark money to flow 
into American political campaigns through churches and 
charities.
    Now, let's be very clear what this hearing is about. It's 
about money, money, money. That is what this hearing is about. 
It is not about the restraint of free speech.
    I ask unanimous consent to insert into the record the 
statements from the following organizations. Statement of Tim 
Delaney on behalf of the National Council of Nonprofits. 
Statement of Amanda Tyler on behalf of the Baptist Joint 
Committee for Religious Liberty. Statement of Maggie Garrett on 
behalf of Americans United for Separation of Church and State. 
And, finally, the statement of Michael De Dora on behalf of the 
Center for Inquiry.
    Mr. Jordan. Without objection, so ordered.
    Mr. Krishnamoorthi. Now, folks, we all must remember the 
separation of church and state is foundational to our 
democracy. And the reason why houses of worship and churches 
and religious institutions have a special tax exemption under 
the code is because we want to encourage folks to be able to 
donate to their churches and houses of worship and nonprofits 
to do good for our society, and to do it in a nonpartisan, 
nonpolitical way.
    People who are affiliated with these churches and houses of 
worship and nonprofits in their personal capacities can do 
whatever the heck they want politically. But they cannot use 
their resources, which have been derived in a tax-exempt way, 
from pursuing partisan political purposes. And that is 
something that's sacrosanct in our Tax Code, and that's what 
the vast majority of Americans believe in.
    Thank you. And I yield back.
    Mr. Jordan. I thank the gentleman.
    I now recognize another pastor. The gentleman from North 
Carolina, Mr. Walker, is recognized.
    Mr. Walker. Thank you, Mr. Chairman. It's a privilege to be 
with you guys today.
    Thank you, panel, for coming out as well.
    I want to take some time to get to some questions, but just 
some of the comments that I hear I feel like that need to be 
addressed.
    We stand for synagogues, temples, churches. So the misnomer 
that we heard earlier, this is just about churches, is 
certainly offensive to me. My friend, Rabbi Fred Guttman in 
Greensboro, we don't agree many times politically, but he's one 
of my dearest friends. Rabbi Andy Koren was in my office 
yesterday.
    But I also stand for my friends Dr. Mohammed Farooqui, 
Shahzad Akbar, and those great people, not just because they're 
friends of mine, but because they have every right to speak 
according to their religious beliefs as anybody else.
    Another comment that was just recently mentioned was 
talking about a pastor as long as he is, I believe, operating 
in his personal capacity. And I thought about, once again, this 
is a place where what laymen, what pastors, what the American 
public, the rules they have to play by are so often different 
than what Congress gets to play by.
    In this capacity, if we were to endorse someone, it 
wouldn't be in our private. We would probably say, in any kind 
of billing, it would say, Congressman so-and-so endorses so-
and-so.
    And I just think it's kind of humorous that we put 
limitations as far as a pastor on what he can do if it's under 
the guise of a church. If so-and-so is this pastor, make sure 
he is saying that's in his personal capacity as opposed to 
representing a certain church body.
    And, Rabbi Saperstein, you had talked about a little bit 
earlier and talked about two people running in the same church, 
what would the pastor do? I had two thoughts on that. One is 
local churches should have the autonomy to be able to make 
whatever decisions they believe as long as it's within the 
confines of the law.
    And I will tell you as a former pastor, you talked about 
that being such a crises. And as you've probably experienced as 
well, crises are when you're in the room with somebody 
breathing their last breath and struggling to give words to a 
family. Crises is when you have a home falling apart and you're 
looking for guidance to be able to put that back together. I 
trust pastors to make the decisions well when it comes to 
politically in this capacity.
    So let me ask a couple of questions. And I want to start 
with--and I was out--Ms. Ancalle? Is that----
    Ms. Ancalle. Ancalle.
    Mr. Walker. Ancalle. Okay. Thank you for the pronunciation.
    The Federal Tax Code in regards to a tax-exempt charitable 
organization, among other things, must not participate in or 
intervene in--which is including publishing or distributing of 
statements--any political campaign on behalf or in opposition 
to any candidate for public office.
    ``Indirectly'' is the key word I want to focus on there. 
What does it mean to indirectly intervene in a campaign? And if 
you, a legal expert, can't tell me, how in the world are 
pastors supposed to know what kind of conduct is legal and what 
isn't?
    Ms. Ancalle. That's a fabulous point, and that's exactly 
the point that I believe and the ADF is making today, is that 
the vagueness of these rules and regulations, the secrecy 
behind some of the regulations that the IRS uses to investigate 
churches and other nonprofit organizations is just baffling. 
And it's very difficult for attorneys, and certainly lay 
people, to understand.
    Mr. Walker. I don't think this fear is unfounded, whether 
it's your Hindu background, Muslim background. But I do find it 
very interesting that 81 percent of the American public--81 
percent of evangelicals--voted for President Trump. This fear 
is real, it exists out there, that there are some restrictions 
that are trending this direction.
    Another question I would have for you, you used the word 
``chilling effect'' in your testimony. Can you describe how the 
Johnson Amendment has a chilling effect on speech?
    Ms. Ancalle. Certainly. Precisely because of the vagueness 
and the inconsistency with how the IRS applies the law, with 
whether the IRS is going to actually continue to apply the law 
in the same ways when the IRS imposes a penalty and then 
actually rescinds that penalty or refunds that penalty with 
interest, it causes a lot of confusion for pastors and leaders 
in nonprofit organizations, which is unfortunate. But it is 
what causes a chilling effect. Because pastors are uncertain of 
how the Johnson Amendment will be applied to them, they, in 
fact, do not make political statements, not just about 
candidates, but about issues that do affect the church.
    Mr. Walker. I just had a meeting recently with about 50, 55 
pastors. We do these breakfasts about once a month, and we 
invite all of our friends from different places, synagogues, 
temples, whatever it might be. And one of the current concerns 
they continue to bring up is this mass confusion as far as what 
they can and cannot say. It's very unclear.
    Ms. Holcomb, some believe an amended Johnson Amendment 
would politicize the 501(c)(3) organizations, or in this case 
synagogues, temples, or churches. Would nonprofit organizations 
be forced to stand in support or opposition to any political 
candidate?
    Ms. Holcomb. Mr. Chairman, members of the committee, thank 
you for that question.
    No, absolutely not. If you don't want to speak about these 
issues, you certainly do not have to. But right now we have the 
heavy hand of government coming down on one side of this 
equation saying that you may not. That's fundamentally a 
theological decision and should be left to the churches.
    Mr. Walker. Thank you, Mr. Chairman. Yield back.
    Mr. Jordan. Thank the gentleman.
    I now recognize the gentlelady from the District of 
Columbia for her 5 minutes.
    Ms. Norton. Thank you, Mr. Chairman.
    You know, if the heavy arm of government were coming down 
on ministers and rabbis, they're a very powerful institution, 
they would be here in our faces. And we haven't seen them. And 
I can't imagine why we now want to take the only part of 
American life that is not polarized and put it right into the 
thick of the ugliest part of our life.
    The religious institutions are the only institutions I know 
not asking for taxes or a tax break. So now you want them up 
here, essentially, doing the same thing.
    It's interesting that none of the minority witnesses 
directly lead a church or a synagogue. But what the majority 
witnesses want to do is to spread Citizens United to houses of 
worship. It's not about free speech. It's about political 
money.
    There's been great wisdom on the part of the Framers and 
the Johnson Amendment in protecting our houses of worship, our 
political institutions, from the corrosive effects of political 
money. Of course, the churches and the synagogues and religious 
institutions have spoken for themselves asking for the money. 
So I don't know who in the world you think you represent.
    There is a repeal bill here offered by Congressman Hice and 
Congressman Scalise. I'd like you, Rabbi Saperstein, to listen 
to how they would frame it as far as churches, religious 
institutions, and charities. Remember that, charities. It's a 
wide-open word.
    Partisan political activity would be allowed if it is made 
in the ordinary course of an organization's regular and 
customary activities--that's the biggest hole I've seen anybody 
has ever tried to write into law, if you try to figure what a 
minister and a rabbi do every day--that results in the 
organization incurring not more than de minimis incremental 
expenses.
    Rabbi Saperstein, does that language, does that approach 
taken in this pending legislation allay the concerns you raised 
in your testimony?
    Rabbi Saperstein. Indulge me to make two very brief 
comments before responding.
    First, in the Tim Delaney letter that was put into the 
record here earlier, it represents 4,500 nonprofits. I checked 
briefly. It looks like there are nonprofits from each of the 
districts of the people who are here today on this.
    Secondly, I just had--Mr. Walker talked about Rabbi Koren, 
because we brought 800 leaders in to advocate for policies that 
they were concerned about. But, at the same time, totally 
coincidentally, I see a group of Jewish women behind me who 
with people, I'm sure, in each of your districts, wanted to get 
involved in electoral politics and created a Jewish woman's 
PAC--that's a national political action committee--rather than 
doing it through their synagogues.
    So what we're not sure of is what de minimis means here. 
The idea that endorsement, you're allowed to endorse someone, 
you can do it from the pulpit, you just can't do it with tax-
deductible money and tax-exempt money. And that's the money 
that pays that salary of the person making the statement that 
underwrites the cost of the church----
    Ms. Norton. Rabbi Saperstein, you and I know that some of 
the most political figures we know are ministers and rabbis, 
and they don't feel that they can't speak out. Often they are 
leaders, and, indeed, the ones that make us understand what we 
have to do up here. That's why you don't see them sitting as a 
whole crowd with people of collar, with collars on, saying, 
please change the law.
    How about the de minimis standard, do you think the 
language I quoted to you before would start us down a slippery 
slope?
    Rabbi Saperstein. I have no idea. I posed that question to 
Mr. Hice before. I don't know what it means. It would be as 
vague as the current standards and will not help at all, and I 
think it will open up a Pandora's box that we will deeply 
regret.
    And, Representative Norton, my colleagues can correct me if 
I'm wrong, I don't know a single national, major national 
denomination that is calling for the repeal of the Johnson 
Amendment. Overwhelmingly, the polls show 90 percent of clergy 
do not want this touched, that they feel it protects their 
religious freedom.
    Ms. Norton. That's why I don't know who the minority--
majority witnesses could possibly represent.
    Thank you very much, Mr. Chairman.
    Mr. Jordan. I thank the gentlelady for her questions.
    We'll now turn to the gentleman from Wisconsin, Mr. 
Grothman.
    Mr. Grothman. Just a general question. I have heard 
ministers say that they're--or people in churches say that 
ministers are not speaking out because they're afraid of the 
Johnson Amendment on a variety of issues that they're afraid to 
talk about.
    Deep down inside, do you think the biggest problem we have, 
as far as ministers not speaking out on certain issues, is it 
the Johnson Amendment or is it cowardice on the part of the 
ministers?
    It's a big issue. It's a huge issue.
    Ms. Ancalle. Yeah. I'll just mention that I know that every 
election cycle activist organizations send letters to 
churches--my church back in Georgia received these letters 
every year--threatening to turn them in to the IRS. And 
especially the smaller churches, this is a significant threat. 
They don't have tax experts and tax lawyers in their churches 
that can step up to the plate and provide defenses and guidance 
through audit and 2-year investigations.
    And so I do think that it's a significant threat, the 
Johnson Amendment is a significant threat to pastors.
    Mr. Grothman. What's the bigger problem? Is it the Johnson 
Amendment or when ministers tell me they can't speak out on 
abortion or can't speak out on gay issues or can't speak out on 
premarital sex, is the bigger problem the Johnson Amendment or 
is it cowardice on the part of the clergy?
    Ms. Ancalle. Well, I'm actually also very glad that you 
asked that question because, in fact, Family Research Council 
has a significant church ministries team. And there are a 
number of pastors from those churches from around the country 
that are heavily engaged in the political process, both on the 
local and the national level. And I'm here representing, you 
know, some of those churches that are a part of our church 
ministries team.
    And so I do think that pastors, many pastors, would like to 
be more engaged and are just not sure how they can do that with 
the Johnson Amendment intact.
    Mr. Grothman. Ms. Engelbrecht, Ms. Holcomb, do you have any 
comments on that?
    Ms. Holcomb. Yes. Mr. Chairman, members of the committee, I 
appreciate the question.
    I think it's a false dichotomy. It's kind of a question of 
which comes first. Alliance Defending Freedom receives hundreds 
of calls every year from pastors across the country who want to 
know what the legal boundaries of the Johnson Amendment are and 
what they can and cannot legally do.
    Again, they're law-abiding citizens. They don't want to 
risk the IRS intrusion into their pulpits and ministries. And 
so they're trying to be very careful and cautious about how 
they go about leading their congregations and navigating these 
moral issues.
    And so it's so important that we deal with the issue of the 
Johnson Amendment so the pastors again feel at liberty to, as 
they did for the first 200 years of American history, guide 
their people in all aspects of life.
    Rabbi Saperstein. The other option would be for all of us 
to simply tell them what they're entitled to do, entitled to 
speak out on all of these things, so long as they don't endorse 
candidates and use money for partisan political purposes. 
Pretty simple concept here. And all of those letters you get, 
we could just tell them what they're allowed to do and empower 
them to do it.
    Mr. Grothman. Yeah. Well, this is a fine bill. I'm not sure 
it's the biggest problem we face in the clergy today.
    But, Ms. Engelbrecht, I'll give you a question.
    Ms. Engelbrecht. Well--go ahead.
    Mr. Grothman. Go ahead. You can respond to my last 
question.
    Ms. Engelbrecht. You know, I am a leader of a 501(c)(3) 
organization. So this is not academic to me. This is not a sort 
of empirical study of what might happen. It happened.
    And I'm eternally glad, as our country should be, that it 
didn't happen when civil rights greats like Martin Luther King 
spoke out underneath the Johnson Amendment, but it doesn't mean 
that it couldn't. And I think we have just come to a very ugly 
chapter in this country when we saw the IRS take full liberty--
liberty, that's a funny use of that word--to abuse the rights 
citizens.
    So there's no half measure of freedom. There's no half 
measure of free speech. You either have it or you don't. And I 
think that's the fundamental question. I do realize that this 
is a difficult situation to sort through, but I don't think you 
can start at a place that delegitimizes the Constitution.
    Mr. Grothman. Okay. Either you're avoiding or didn't get 
what I was trying to get at. But, okay.
    I'll give you another question. Other than True the Vote, 
are you aware of any other organizations that are silenced or 
harmed by the Johnson Amendment?
    Ms. Engelbrecht. Absolutely.
    Mr. Grothman. Could you list them?
    Ms. Engelbrecht. Well, sadly, I don't have the list with 
me. But I would say that America got a first glimpse when the 
BOLO list, be-on-the-lookout list came out in the USA Today, I 
believe it was, that listed over 200 groups that had been 
singled out for investigation by the IRS.
    Mr. Grothman. Okay. Thank you very much.
    Mr. Jordan. I thank the gentleman.
    Rabbi, do you--and let's just talk in the abstract first--
do you think that government can, in fact, have a chilling 
effect on individual liberties?
    Rabbi Saperstein. I do.
    Mr. Jordan. And then let's get specific. Do you think the 
government can have a chilling effect on people's First 
Amendment free speech liberties?
    Rabbi Saperstein. I do.
    Mr. Jordan. Yeah. And part of that is driven by what we've 
heard from the other witnesses, the vagueness of the Johnson 
Amendment. Do you agree with that?
    Vagueness of the Johnson Amendment, every election year 
countless number of churches, typically evangelical churches, 
get letters from the left--is that right, Ms. Holcomb?
    Ms. Holcomb. That is correct.
    Mr. Jordan. Letters from left-wing organizations say: Hey, 
hey, hey, be careful, big brother is watching.
    Rabbi Saperstein. Does that have to do with the ambiguity 
or does that have to do with they're endorsing candidates?
    Mr. Jordan. No, it has to do with the fact organizations 
are sending them a letter and the vagueness of this law.
    Rabbi Saperstein. Saying in the past you've endorsed 
candidates, and you shouldn't do that. The Johnson Amendment 
and the law is clear, don't do it.
    Mr. Jordan. Saying whether it's true or not. My colleague 
from the District of Colombia mentioned just a few minutes ago, 
the heavy arm of government. If anyone knows about the heavy 
arm of government, my guess is it's Ms. Engelbrecht, right?
    If I get this right, looking at your fact pattern, the two 
organizations you were involved in forming, True the Vote and 
King Street Patriots, back in 2010 you applied for your tax-
exempt status, right?
    Ms. Engelbrecht. Correct.
    Mr. Jordan. And after 2010, for the next 3 years, if I 
counted this up right, you got six phone calls or visits by the 
FBI.
    Ms. Engelbrecht. Correct.
    Mr. Jordan. Twice you were visited by the Bureau of 
Alcohol, Tobacco and Firearms. OSHA stopped by to say hello. 
The Texas EPA stopped by to say hello. The ranking member of 
this full committee sent you letters, went on national 
television, and criticized you and your organization. And, oh, 
just to add insult to injury, eight times the IRS contacted you 
and audited you both personally and in your business. Is that 
accurate?
    Ms. Engelbrecht. That's accurate. And I would add to that, 
that all the while our 501(c)(3) application was in play. At 
any point the IRS could have said, you know, thumbs up or 
thumbs down, you either meet the criteria or you don't. But 
they used it for what over time began to feel like opposition 
research.
    Mr. Jordan. Did you feel a little nervous? Did that chill 
some of the activities that True the Vote and King Street 
Patriots might want to get involved in?
    Ms. Engelbrecht. Absolutely.
    Mr. Jordan. Would you agree with that, Rabbi, that that 
would probably have a chilling effect on any organization, had 
there been eight contacts from the IRS, six from the FBI? 
Again, finding nothing wrong, she didn't do anything wrong. She 
was just waiting on a pending application.
    Rabbi Saperstein. The application of any of these rules 
should never depend on the content of what is happening here. 
That is a principle I hope we all agree on.
    Mr. Jordan. So let me ask you a question, Ms. Holcomb, 
because--well, let me get back to Ms. Engelbrecht.
    Did the IRS ask for anything specific? Did they ask, like, 
what you're doing in these meetings, the content of what you're 
doing? Did they do that?
    Ms. Engelbrecht. Yes, sir. They asked for copies of every 
tweet I'd ever tweeted, every Facebook posting I'd ever posted, 
everywhere I'd spoken since the inception of the organization 
and to whom, and what I said. And they asked for any advanced 
scheduling for the next 2 years. There was no doubt in my mind 
that they were looking to censor my speech.
    Mr. Jordan. So if that's not the heavy arm of government 
chilling First Amendment liberties, I don't know what is. I 
don't know what is.
    Ms. Holcomb, have pastors ever had their--had the 
government ask for the content of their sermons? Has that ever 
happened?
    Ms. Holcomb. Thank you, Mr. Chairman.
    Yes, unfortunately, it has. One extremely notorious----
    Mr. Jordan. And it happened in----
    Ms. Holcomb. Houston.
    Mr. Jordan. --it happened to happen in Ms. Engelbrecht's 
State, right?
    Ms. Holcomb. It did.
    Mr. Jordan. Not too far from where she lives. Imagine that.
    Ms. Holcomb. That's exactly right. The mayor of Houston 
subpoenaed the sermons of five local pastors all because they 
had simply spoken out and preached about their Biblical views 
on human sexuality
    Mr. Jordan. They hadn't endorsed a candidate, had they?
    Ms. Holcomb. They had not endorsed a candidate whatsoever.
    Mr. Jordan. They hadn't opposed a candidate?
    Ms. Holcomb. They had not.
    Mr. Jordan. It was about an issue, wasn't it?
    Ms. Holcomb. It was about an issue.
    Mr. Jordan. Issue central to their tenets, their beliefs?
    Ms. Holcomb. That's exactly right.
    Mr. Jordan. Think that chills speech, Rabbi?
    Rabbi Saperstein. I don't know the circumstances, but my 
answer is going to be yes. A mayor shouldn't be asking for the 
content of this. It may be such, but just because----
    Mr. Jordan. On a central issue, a social issue that is 
central to the beliefs of those individuals at that church, 
that the mayor, I mean, the heavy arm of government, the mayor 
of a city of several million people, Houston, if I remember 
right, Ms. Holcomb, asked for the content. You just said 
earlier we shouldn't be doing that.
    So this is what happens, and this is why Mr. Hice's 
legislation is so important, this issue is so important.
    Rabbi Saperstein. But the question is, are there times, 
legitimately, that speech can be regulated here? And you quoted 
Virginia v. Hicks before, did I hear you correctly, Mr. Hice?
    Mr. Hice. That I did what?
    Rabbi Saperstein. You quoted Virginia v. Hicks, the Supreme 
Court case.
    Mr. Hice. Yes.
    Rabbi Saperstein. So in that case Justice Scalia said there 
comes a point at which the chilling effect of an overbroad law, 
significant though it might be, cannot justify prohibiting all 
enforcement of the law.
    And I think that this law works in the proper way, the 
Johnson Amendment----
    Mr. Jordan. You may think but----
    Rabbi Saperstein. --to say you just can't have the speech 
with government subsidies.
    Mr. Jordan. I respectfully disagree, and so do a lot of 
other Americans. That's why we're having this hearing. And what 
we know is it did happen. It happened. The heavy arm of 
government asking for content for sermons that pastors preached 
regarding an issue, not endorsing candidates.
    Rabbi Saperstein. You and I agree on this.
    Mr. Jordan. And the slippery slope that my colleague also 
talked about is pretty darn slippery when you view it in the 
context that Ms. Engelbrecht knows firsthand.
    When you view it in the context of the very organization 
charged with administering this amendment, this law, the 
Johnson Amendment, was caught, systematically, for a sustained 
period of time, in Ms. Engelbrecht's situation 7 years, 
harassing groups, keeping them in limbo, chilling their 
activities, because they didn't like their political beliefs. 
Unbelievable that happened in the United States. Unbelievable.
    And we also know what took place in Houston where the 
government was saying: We want pastors' sermons. You've got to 
be kidding me. And to say that we don't need this, and to say, 
oh, it's about campaign finance. It's not. It's about no law 
abridging freedom of speech, the plain language of the First 
Amendment.
    Rabbi Saperstein. I'm sorry. And endorsing candidates will 
help that situation?
    Mr. Jordan. I didn't say that. I'm just--I'm talking about 
the example here. But, frankly, that's free speech too. But 
what I'm talking about--so I'm talking what took place in Texas 
and what took place in Houston.
    Rabbi Saperstein. They just don't have the right to have a 
government subsidy for that speech. That's the only 
restriction.
    Mr. Jordan. Ms. Ancalle, you are just dying to get in and 
then I'll have to move on to our next----
    Ms. Ancalle. I'm very excited to chime in on this topic, if 
you don't mind, because a church does not receive government 
subsidies. A church is tax exempt. And that's because churches 
and these charities, these nonprofit organizations are giving 
out more than $1 trillion, a recent study said, in goods and 
services. So the idea that churches are subsidized by the 
government is inaccurate at best.
    Rabbi Saperstein. But you know as well as I do that in the 
legal case that Justice Rehnquist wrote the opinion that--I 
quoted Justice Scalia before--another liberal judge, Justice 
Rehnquist, held that that is, these are subsidies. And that is 
the law of the land right now, right?
    Mr. Jordan. I don't think many churches think they're 
getting subsidies from their parishioners. I think they're 
getting----
    Ms. Ancalle. And I believe that if a church did receive 
government subsidies----
    Mr. Jordan. --a tithe from their parishioners because they 
believe in the work that they are doing in that church, and the 
ministry they are receiving, and the ministry they are giving 
to the community, and to the families who worship there. That's 
what it is. It's not a subsidy from the government, for 
goodness sake.
    With that, I'll recognize my good friend, the ranking 
member from the great State of Virginia.
    Mr. Connolly. Thank you.
    Mr. Jordan. Knows something about the First Amendment, that 
founding colony and all that.
    Mr. Connolly. Right.
    Mr. Jordan. God bless you, Brother. You're up.
    Mr. Connolly. I thank you. And we even know something about 
religious freedom, because I also come from Massachusetts where 
John Adams enshrined that concept into the first Constitution 
of Massachusetts, which continues to this day.
    And, of course, Mr. Jefferson and Mr. Madison, both of whom 
came from my State of Virginia, believed in a pretty strong 
firewall between church and state. Mr. Madison, for example, 
took on a lot of unpopular religious causes to fight for the 
religious freedom of Anabaptists, because the State religion as 
a colony was the Church of England. And it was not a popular 
cause, although, it helped him beat James Monroe for the first 
congressional election--but that's a different story--because 
the other Anabaptists came out in droves to support him.
    So we have a little bit of history in the Commonwealth of 
Virginia. I remember going to Williamsburg for a mock trial 
from an original verbatim and, again, was surprised to learn, 
Rabbi Saperstein, that Catholics were not welcome on the jury. 
And we could be fined if we refused to go to Sunday services at 
the Church of England because of the political dominance of 
that particular denomination. For some reason, they were a 
little more squishy about Jews. Apparently, Jews could maybe, 
kinda, sorta, sometimes serve on a jury. But not us.
    What could go wrong with--I mean, this is just First 
Amendment rights. We're stifling churches and other religious 
institutions. Although we only in our title talk about church, 
I hope you didn't feel left out. But if we repeal the Johnson 
administration, it would be more than churches affected, would 
it not, Rabbi?
    Rabbi Saperstein. The damage that can be done is to bring 
our corrosive, divisive, partisan splits in this country into 
one of the few institutions that people with different 
political, ideological, even religious differences are able to 
come together in community and comity. It is why the 
denominations want this protection. It is why 90 percent of 
clergy want this protection.
    The damage is it can flood--if you've got a choice 
between--think of the hundreds of millions of dollars that went 
into political campaigns. If you have a choice of getting a tax 
deduction for it--now, this doesn't apply to your version. But 
in repealing the Johnson Amendment, hundreds of thousands, 
millions of dollars going in and getting a tax deduction or 
not, you're going to be flooding the churches.
    I don't want to have Republican churches and Democratic 
churches, Republican mosques and Democratic mosques. And 
bringing partisan politics into this is going to damage this.
    So this isn't just a constitutional--it's not a 
constitutional question that free speech exists. The only 
question is whether it can be done with the subsidy of tax-
exempt and tax-deductible money.
    Mr. Connolly. So, for example, a house of worship or a 
denomination or just an individual entity, Muslim, Hindu, 
Jewish, Christian, could voluntarily say, you know, I just 
don't--I'm going to give up the tax deduction, the tax 
exemption, and do my thing.
    Rabbi Saperstein. It can. And there are some that do it. I 
gave the example, a group of Jewish women here who created a 
Jewish women's PAC that's very effective and very respected 
across the country, because they wanted to do it freely and 
without dividing their congregations.
    Mr. Connolly. So far from being a matter of the exercise of 
free speech, it's really about your tax status. And if you 
really want to engage in that kind of partisan political 
activity and accept donations, why not just give up your tax 
exemption?
    Rabbi Saperstein. It's not giving up your tax exemption. 
You would remain tax exempt. You would create a (c)(4) that 
would create a PAC. It just means that there's no tax-
deductible funds.
    Mr. Connolly. So there's no impediment to forming a 
501(c)(4), another entity, for that purpose if they wanted to.
    Rabbi Saperstein. Correct.
    Mr. Connolly. Is that correct?
    Rabbi Saperstein. Correct.
    Mr. Jordan. The IRS is taking forever to give you----
    Mr. Connolly. Sorry, Mr. Chairman, still got my time.
    So what's wrong with doing that, Rabbi? Why wouldn't people 
want to do that instead of repealing the Johnson administration 
which gets us into this real sticky mess? And, frankly, it's 
going to, I think, create enormous division in the faith 
community in America.
    Rabbi Saperstein. You ask what's wrong with that. Legally, 
there's nothing wrong with it. If I had my druthers, I'd much 
rather do it the way those women sitting in the back of the 
room did, create an entirely different entity that brings those 
religious people together to do it and keep it away from the 
houses of worship altogether. But, legally, they have the right 
to do it.
    Mr. Connolly. All right. My time is up. Thank you all for 
being here.
    Mr. Jordan. I'd just ask unanimous consent to submit into 
the record a statement from the Ethics and Religious Liberty 
Commission, which is part of the Southern Baptist denomination, 
expressing their support for Mr. Hice's legislation.
    Without objection, so ordered.
    Mr. Connolly. In the spirit of the First Amendment, we have 
no objection.
    Mr. Jordan. Okay. I appreciate it. God bless you.
    Mr. Meadows, the gentleman from North Carolina, is 
recognize.
    Mr. Meadows. Thank you, Mr. Chairman. And I thank the 
gentleman from Georgia for his leadership.
    Ms. Holcomb, we are not asking for tax-exempt political 
donations to be made available to every church in America, are 
we?
    Ms. Holcomb. Mr. Chairman and members of the committee, no, 
we absolutely are not. And thank you for the opportunity to 
clarify.
    The Free Speech Fairness Act, again, very simple, simply a 
relief valve for speech. It does not eviscerate current 
campaign finance laws. Contributions, expenditures are already 
regulated. No, look, all we're talking about, again, is a 
pastor's freedom to speak freely from the pulpit.
    And it's a complete misnomer to think that we're just 
talking about candidate endorsements here. No. Politics has 
intruded on moral issues. So we're talking about a pastor's 
freedom to address issues like the sanctity of human life, like 
marriage, without fear of IRS retribution.
    Mr. Meadows. So this whole narrative that talks about dark 
money going to churches in order to actually support candidates 
that may or may not be there is not only a red herring, but it 
is a red herring of unbelievable crimson red. Wouldn't you 
agree with that?
    Ms. Holcomb. Respectfully and politely, it's fear-
mongering. It is not what is at issue here. And, frankly, if we 
would like to discuss history, as was raised earlier, pastors 
for the first 200 years of American history had this freedom. 
They exercised it responsibly.
    The Johnson Amendment was not enacted in order to address 
any issue with churches. Frankly, it does not appear Senator 
Johnson was even aware it would apply to them.
    Mr. Meadows. Well, so, Ms. Holcomb, would you not agree 
that in this very Capitol building, that we have clergy who 
have statues erected in their honor for what they've done for 
the founding of our country and battling for those religious 
liberties, and they were the clergy that came from the pulpit?
    And I would suggest that those political interventions, 
maybe before we had the IRS, the long arm of the IRS reaching 
into Ms. Engelbrecht and others--but did they not--the clergy 
was not without a voice from the very founding of this Judeo-
Christian Nation.
    Ms. Holcomb. That's exactly right. And they spoke out on 
the most important issues of the day, including the 
Revolutionary War, civil rights, so on and so forth.
    But if I may, I'd like to also address one of these other 
accusations that I've heard tossed around here, that it's 
divisive to churches. With all due respect, that's quite 
paternalistic. Churches are more than capable of handling their 
own issues without the heavy hand of government coming in and 
trying to prevent division within the church. No, these are 
fundamentally theological decisions that should be made within 
the church body itself.
    Mr. Meadows. Well, I thank you for clarifying that.
    Mr. Saperstein, Rabbi, I will come to you. You and I go way 
back, and we have a passion on a number of areas. We happen to 
disagree in terms of your premise here today and mine. So let 
me put it in a vernacular that perhaps I can share from a 
Christian perspective on what I'm hearing from many of our 
pastors that may translate a little bit closer to home.
    Some have suggested that I'm so pro-Israel that I make Bibi 
Netanyahu look moderate. And so you know that my passion for 
Israel is genuine and the Jewish people.
    Rabbi Saperstein. I do indeed.
    Mr. Meadows. And so I say that.
    If a rabbi with a tax-exempt status starts to get involved 
in any political discussions that may not have to do with 
marriage or life, but let's say it gets involved in Palestinian 
versus Jewish, or who should be a leader, or that we should 
make sure that we elect more pro-Jewish Members of Congress, do 
you think that that should be permitted in a synagogue?
    Rabbi Saperstein. I think that that right exists right now 
all across America.
    Mr. Meadows. I agree. I agree it does. I agree it exists. 
But do you believe that it should be there? Not that it exists.
    Rabbi Saperstein. Yes.
    Mr. Meadows. So, based on that premise, anything that would 
provide for a chilling event that suggests that I should 
support a candidate that is more pro-Israel, would you not 
think that that should be across the board on any denomination 
or any religion?
    Rabbi Saperstein. I'm actually confused. Forgive me.
    Mr. Meadows. I was hoping that you would be.
    Rabbi Saperstein. I'm confused as to whether you're talking 
about the issue or----
    Mr. Meadows. I'm talking about the issue.
    So let me tell you what's happening, is that we've gone to 
a narrative that would suggest that we want churches to be 
political endorsers and money pots for others, and that's not 
really what we're talking about. What we want them to be able 
to do is have the ability--and I think you and I agree on 
this--to have the ability of free speech, direct from the 
pulpit, without fear of retribution or losing their tax-exempt 
status, deeply held religious beliefs that you and I both will 
seek to defend. And that's what we're trying to get at here 
today.
    And so what I look forward to from you is some suggestions 
on how we can do that. And I'm willing to put a prohibition on 
moneys going through 501(c)(3)s to make sure. But if we take 
this very far, we're going to have a chilling effect on free 
speech, and I'm sure that's not what you want.
    Rabbi Saperstein. You said this was a red herring. Put 
aside Mr. Hice's proposal here.
    Mr. Meadows. I don't know that you can. But go ahead.
    Rabbi Saperstein. If we simply undo the Johnson Amendment, 
is it not clear that then nonprofits would be able to give 
money into--and because churches have exemptions from reporting 
990s and contributions on it--there would be this dark money 
that would flow through that. Either you take away the 
exceptions from the church, God forbid, or you actually allow 
it to continue and churches, religious institutions alone, 
would have the ability to fund things without it being 
transparent. Is that not a valid concern?
    Mr. Meadows. I think it is a jump, a logical fallacy. I 
mean, I'll just speak bluntly. I think that's a logical 
fallacy. But I'm willing to have the debate.
    And I guess what I'm saying, Rabbi, is this. If you will 
come to this committee with ways to protect free speech, you 
will have someone who is very willing to make sure that a 
501(c)(3)'s tax-exempt status does not get used in an 
inappropriate manner financially, with at the same time 
allowing for complete free speech to happen from the pulpits 
and other areas of worship. Sound fair?
    Rabbi Saperstein. Again, I think we differ on whether that 
free speech exists today or not.
    Mr. Meadows. We do differ on that.
    I'll yield back.
    Mr. Jordan. Real quickly before turning to Mr. Raskin.
    Ms. Holcomb, can a church contribute to a political 
candidate's campaign today?
    Ms. Holcomb. No.
    Mr. Jordan. No. And if the Johnson Amendment is gone, would 
a church be able to contribute to a political candidate's 
campaign?
    Ms. Holcomb. Look, we're talking about the Free Speech 
Fairness Act. No, absolutely not.
    Mr. Jordan. No, no. But they could be able to speak, right? 
That's all we're talking about. They could be able to exercise 
their First Amendment liberty where it says Congress shall not 
abridge freedom of speech. That's all that happens. Well, 
imagine that, we'd actually have the First Amendment the way 
it's supposed to be.
    Mr. Raskin.
    Mr. Raskin. Mr. Chairman, thank you very much and for 
waiving in and allowing me to participate this hearing.
    I want to start with just two questions of nomenclature. 
One is the so-called Johnson Amendment was, of course, 
introduced by Senator Johnson, but it passed on a bipartisan, 
overwhelming bipartisan basis, in a Republican Congress, and 
signed into law by President Eisenhower. So this has been 
standard American law for decades.
    Secondly, the First Amendment Fairness Act, I believe 
that's what it's called, you know, with all due respect, the 
First Amendment doesn't need a fairness act. The First 
Amendment is supreme to any statute we might pass. The First 
Amendment is its own fairness act. If someone is violating the 
First Amendment, go and sue under the First Amendment.
    So let me start with that. Are any of you aware of any 
constitutional litigation since 1954, in the last 60-plus 
years, challenging the so-called Johnson Amendment or the 
Eisenhower Amendment as unconstitutional and what its success 
has been?
    And forgive me for going fast, but we just have so little 
time. Are you aware of any? Have you ever brought a case on it 
or no?
    Ms. Ancalle. I'll defer to Ms. Holcomb.
    Mr. Raskin. Ms. Engelbrecht, are you aware of any decisions 
striking it down?
    Ms. Engelbrecht. Not any decisions, no. But we sued the IRS 
in 2013 just to prove the point.
    Mr. Raskin. Ms. Holcomb?
    Ms. Holcomb. Mr. Chairman, members of the committee, we 
cannot affirmatively sue the IRS due to Federal law.
    The Anti-Injunction Act, we are not allowed, pursuant to 
Federal law----
    Mr. Raskin. The Anti-Injunction has to do with Federal 
spending.
    Ms. Holcomb. We can't--no, I respectfully disagree. We 
cannot----
    Mr. Raskin. Are you saying the church cannot sue the 
Federal Government?
    Ms. Holcomb. We cannot, without having been penalized, come 
out and sue the IRS to challenge the constitutionality of the 
Johnson Amendment. Happy to provide you with briefings----
    Mr. Raskin. Okay. Well, let's discuss that.
    Rabbi Saperstein, are you aware----
    Rabbi Saperstein. That's what the Branch Ministries case 
was, wasn't it----
    Ms. Holcomb. Respectfully disagree once again. No, that's 
not the case whatsoever. Branch Ministries----
    Mr. Raskin. All right. We'll have to litigate it after.
    In any event, I was a little surprised to hear this 
repeatedly described as an unconstitutional law that's been on 
the books for six decades and it's never been struck down 
before. I mean, that's----
    Ms. Holcomb. Because we can't----
    Mr. Raskin. --that's a miracle of nature. That's remarkable 
in the United States of America. There are churches that win 
suits all the time in the U.S. Supreme Court.
    But, okay, let me ask you this. Have any of you as private 
citizens ever been stifled in your own political speech, your 
ability to go out and say you believe X, Y, or Z, for moral, 
religious, philosophical, or political reasons? Have any of you 
ever been restrained in your speech or your spending?
    Ms. Holcomb. Respectfully, sir, I'm not a church or a 
nonprofit.
    Mr. Raskin. Okay. As a citizen I was asking you. As a 
citizen, have you ever been stifled because of your religious 
views?
    Ms. Holcomb. [nonverbal response.]
    Mr. Raskin. Okay.
    So let me ask you this--were you going to say, Ms. 
Engelbrecht? Have you?
    Ms. Engelbrecht. Well, you qualified at the end based on 
religious views. And I would just say that in my instance I was 
interested in the advancement of election integrity, and that 
seemed to draw the ire of a great many Federal agencies. And, 
yes, I do believe that I was being suppressed because of my 
speech.
    Mr. Raskin. Okay. Well, you know, at some point I'd love to 
talk to you about that. I actually have some family history, 
because my father, who worked in President Kennedy's 
administration was on Nixon's enemies list, and the IRS went 
after him. So there's abuse of government all the time. But 
what we're here to talk about is the law, and what is the law 
going to be.
    So let me ask you this. Do all of you agree that 
corporations and citizens should not be able to funnel dark 
money through churches in order to get into political 
campaigns? Like, if I wanted to support the Mark Meadows for 
President campaign, hypothetically speaking, I should not be 
able to give $10 million to a church to go out and spend that 
money on an anonymous basis. Do all of you agree or do some of 
you think that is First Amendment protected? Any answers on 
that?
    Ms. Holcomb. Respectfully, sir, it's currently prohibited 
by law, and the Free Speech Fairness Act does not change that.
    Mr. Raskin. No, I understand. But I'm a law professor, so 
don't fight the hypothetical. Imagine a world without 
hypotheticals.
    You know, what I'm saying is, do you think it's 
constitutional for us to prevent people from channeling money 
through churches on an anonymous dark basis to put into 
political campaigns? Is that a First Amendment problem or not?
    Rabbi Saperstein. In a word, yes.
    Mr. Raskin. You think it's constitutional to ban that.
    Do you believe it's constitutional to ban it?
    Ms. Holcomb. Respectfully, again, that's just not what's at 
issue here.
    Mr. Raskin. Okay. Do you guys think it's constitutional to 
ban conduit contributions through churches to political 
candidates?
    Ms. Ancalle. In my statement, we have endorsed the Free 
Speech Fairness Act, and that's what we're advocating for, and 
that's what we're here to advocate for today. And, like Ms. 
Holcomb said, that's not the intent of the Free Speech Fairness 
Act.
    Mr. Raskin. Okay. Well, you know, it was fascinating to me 
that it was something like 90 or 100 religious organizations or 
churches have come to lobby against this. In other words, on 
the terms that I heard described before, they're here to lobby 
against, theoretically, their own free expression rights, and 
it doesn't make any sense to me.
    But I think that what they perceive is that the repeal of 
the so-called Johnson Amendment is an attempt to open up a 
gaping hole in the law for super divine dark money to pour 
through into the political system. And if it's not, then it 
should be very explicitly amended to say that nobody should be 
able to give money to a church for the purposes of putting it 
into a political campaign.
    If all this is about is somebody being able to say what 
they want from the pulpit, I guess I'm with Rabbi Saperstein, I 
haven't seen any evidence that that's actually in danger. But 
do any of you have any cases where somebody has not been able 
to state their political views from the pulpit?
    Ms. Ancalle. I'll just say that I was actually very excited 
to hear the statement of the ERLC, which is the policy arm of 
the Southern Baptist Convention, one of the largest 
denominations in this country, and they actually do support the 
Free Speech Fairness Act.
    Mr. Raskin. Right. But my question is, are you aware of any 
IRS persecution or prosecution of anybody for making a 
political statement at the pulpit?
    Ms. Holcomb. Yes, absolutely so. All Saints Episcopal 
Church was one example provided. It is also in my written 
testimony.
    But, respectfully, I would just like to point out, we don't 
silence the minority just based on the whim of the majority. So 
we're going to do what's right. And there are pastors across 
the country asking for this relief from Congress right now.
    Mr. Raskin. Yeah. Okay.
    Well, we seem to have differences to the facts, because 
some people seem to think that the First Amendment is working 
great, that the Johnson Amendment has worked great for decades, 
and we seem to have a difference as to values. Some people 
believe that churches are actually much better off not being 
able to be dragged into TV sound bite wars and negative 
advertising, and others think that that's perfectly fine, that 
churches should be involved there.
    But let me ask you this. If a church does want to get 
involved, it can set up a (c)(4) right now. It's just that it 
can't receive tax-deductible contributions to do it. Is that 
right?
    Ms. Holcomb. Respectfully, churches aren't asking for 
(c)(4)s. All they want is just to be able to freely apply 
Scripture to every aspect of life without having the IRS on 
their backs, censoring their speech.
    Mr. Raskin. Well, Ms. Holcomb, do you believe the church 
can freely apply millions of dollars of dark money 
contributions to advance its view of Scripture in the political 
process?
    Ms. Holcomb. That's not what they're asking for. Certainly 
not.
    Mr. Raskin. But I'm asking you, do you believe that 
millions of dollars should be able to channeled to churches?
    Mr. Jordan. The time of the gentleman has expired.
    Mr. Raskin. All right, saved by the bell.
    Mr. Jordan. The gentlelady can respond if she would like.
    You weren't really saved by the bell. You were given a 
minute and 40 seconds past the bell.
    Ms. Holcomb. Respectfully, I will just point yet again that 
campaign finance laws are in place that address those concerns. 
The Free Speech Fairness Act does not eviscerate those campaign 
finance laws, and that's simply not what America's pastors are 
asking for.
    Thank you.
    Mr. Jordan. Ms. Engelbrecht, Professor Raskin asked about 
the stifling of free speech. He qualified it, as you said, 
based on your religious beliefs. But certainly there was an 
attempt by the government to stifle your free speech rights so 
much so that--and I don't know if the professor was here for 
your testimony and for some of the earlier questioning--eight 
visits from the IRS, six visits from the FBI, two visits from 
the Bureau of Alcohol, Tobacco and Firearms. OSHA visited your 
business. Texas EPA visited your business. A letter from Mr. 
Cummings, couple letters from Mr. Cummings, and TV appearances 
where he specifically called you and your organizations out.
    All this happens, coincidentally, right after you filed for 
tax-exempt status for King Street Patriots and True the Vote.
    Why do you think that--I mean, that's an awful of lot of 
government getting involved in your life and coming after you 
and looking into what's going on. If that doesn't have a 
chilling effect and stifling effect, and if that's not the 
heavy arm of government, I don't know what is.
    Why do you think that happened? Why did they do it?
    Ms. Engelbrecht. I think it happened because they saw the 
Johnson Amendment as a gateway through which they could attempt 
to silence those who dissented from their perspectives.
    Mr. Jordan. So you think it happened because they just 
didn't like your point of view? You think that was the main 
reason?
    Ms. Engelbrecht. I think that was the primary reason, yes. 
They saw a pro-liberty election integrity organization growing, 
and growing quickly, and they wanted it gone.
    Mr. Jordan. Yeah. I would actually say it's a little more 
than that, frankly, respectfully. I would say it's not just 
that they didn't like what you were speaking out about, that 
they didn't just disagree with your political point of view. 
They did it because you were effective, right?
    Ms. Engelbrecht. Absolutely.
    Mr. Jordan. Because you were making a difference, right? 
You were focused on election integrity and, like, ``Whoa, whoa, 
we can't have that. We disagree with this speech. And, oh, by 
the way, she's having an impact.'' Imagine that. And they said, 
``Time out. Time out. Time for the heavy arm of government.''
    Ms. Engelbrecht. That's right.
    Mr. Jordan. Right?
    And now we know, in your same town, pastors, the heavy arm 
of government weighed in on them and said, ``Hey, by the way, 
you know, you're tax exempt, you can preach what you want, you 
can have your church, but can you send us your sermons? We, the 
government, want to look at what you're preaching on Sunday.'' 
Are you kidding me?
    Ms. Engelbrecht. And I can tell you, having lived through 
that in Houston, Texas, when that happened in our churches, it 
turned the community upside down.
    Mr. Jordan. Sure did. Sure did.
    Mr. Raskin. Would the chairman yield?
    Mr. Jordan. I'm going to give the gentleman from Georgia a 
round here. And then, if the professor would like another short 
round, then we'll let our witnesses be dismissed and close the 
hearing.
    Mr. Hice. Thank you.
    Mr. Jordan. Gentleman from Georgia is recognized.
    Mr. Hice. Thank you, Mr. Chairman.
    And I do have a letter that came out last Congress by a 
host of organizations supporting the Free Speech Fairness Act 
and--for the Johnson Amendment. I'd ask unanimous consent for 
it to be added, included in the record.
    Mr. Hice. And I find great offense that we continue hearing 
that this is all about laundering dirty money through the 
churches. Nothing could be further--that's nothing but fear-
mongering. And it's false. It's shameful. This is about free 
speech. And there are laws to prevent laundering, and nothing 
in that regard changes.
    Rabbi, have you ever endorsed a candidate from your 
synagogue?
    Rabbi Saperstein. No.
    Mr. Hice. Okay. Have you ever received a threatening letter 
from the IRS----
    Rabbi Saperstein. No.
    Mr. Hice. --for whatever you said in your synagogue?
    Rabbi Saperstein. No.
    Mr. Hice. Okay. I have. I've received a number of them. And 
I've received them before I ever endorsed a candidate from the 
pulpit. And they are intimidating. They are threatening. They 
tell me that I can be sued, that my church can be sued, that we 
can lose tax-exempt status if I address certain issues from the 
pulpit.
    Rabbi Saperstein. The IRS sent such a letter?
    Mr. Hice. No. I receive them from left-wing organizations 
that are proclaiming what the IRS has the right to do. And 
whether it's coming from the IRS or not, the fact is those 
letters are chilling and they distort a very vague Johnson 
Amendment that is being used as a bully pulpit to self-censor 
people right out of involvement.
    And the fact that you have not received a letter says to me 
you have no business even addressing what the content of those 
letters consist of.
    It's amazing and ironic to me that people here today who 
claim to be supporters of separation of church and state are 
the very ones demanding that the government censor what's said 
in churches. And it just--it's contradictory in every sense of 
the word.
    It ought to be the pastor, it ought to be the church that 
has a right to determine what is spoken from the pulpit, not 
the government. When government starts determining the content 
of sermons, we are in major trouble.
    So let's go back to the basics, the bird's-eye view of why 
we're here today.
    Ms. Holcomb--I don't know who to address this to, so you 
all just chime in, but let's go relatively quickly.
    The purpose why the Johnson Amendment came about in the 
first place, was it enacted to stop political speech from 
political opponents?
    Ms. Holcomb. Mr. Chairman, members of the committee, it was 
designed as a political ploy by then-Senator Lyndon Johnson to 
shut down two secular nonprofits.
    Mr. Hice. There we go. That was the purpose. And I made the 
quote from the IRS itself acknowledging. That's the purpose. 
Right there is the purpose. That is why we're here today.
    Mr. Hice. It is because the Johnson amendment was enacted 
for the distinct purpose of silencing political opponents who 
happen to be leading nonprofit organizations. That's why we're 
here. And that, over 60 years ago, has now become a massive 
tool of intimidation for 501(c)(3) organizations, and that 
precisely is what--it's not about money; it's about free 
speech, it's about deliberately, purposefully, intentionally 
trying to silence the beliefs in the public square of those who 
are in nonprofit 501(c)(3) organizations. And that must change. 
That is unconstitutional. That is un-American, and it needs to 
change.
    All right. The importance of 501(c)(3) organizations in our 
society, in 10, 15 seconds, how important are they?
    Ms. Ancalle. They're very important. I was going to mention 
that a study, a recent study showed that 501(c)(3) 
organizations provide more than $1 trillion a year in the 
United States alone in goods and services. These are the people 
in need. 501(c)(3) organizations are very important. And 
they're not just getting--they're not subsidized by the 
government. They're actually giving a lot to the American 
people.
    Mr. Hice. Ms. Engelbrecht, you mentioned in your testimony 
that 501(c)(3)s are an endangered species. Can you elaborate?
    Ms. Engelbrecht. Absolutely. I started my organization in a 
time when there were many organizations being started, in 
pursuit of liberty and trying to--in ways that had not been 
seen for years, engage citizens in political speech and the 
ability to speak freely. And when the IRS began singling groups 
out, that shut down, and it hasn't come back. It hasn't come 
back like it was, because who wants to be put through that? I'm 
still in court. Who wants that? That's why the Johnson 
amendment has to be repealed, replaced. Something has to be 
done, because we don't want that stain on the fabric of our 
country.
    Mr. Hice. Mr. Chairman, I yield--and I will just say, 
perhaps we ought to add 501(c)(3)s to the endangered species 
list, because I agree with you wholeheartedly, and it would be 
the one time that I would support the endangered species list.
    But thank you very much. I yield back.
    Mr. Jordan. Thank you, Jody. And thank you--or, Congressman 
Hice, for all your great work over--not just in Congress, over 
the years on this important, important issue.
    I just want to ask one--a couple questions here, again, to 
Ms. Engelbrecht. So I want you to tell this committee and for 
the record just what it feels like----
    Oh. Yeah, I'm coming back to you. Yeah.
    -- just what it feels like when you get eight contacts from 
the FBI, six from the IRS, two from the BATF, OSHA, EPA, you 
have an important member, influential member, ranking member of 
Congress go on TV, say things about you personally, send you 
letters. What's that feel like.
    Ms. Engelbrecht. It's terrifying. And for 2 years, I didn't 
tell anybody, because there was such a stigma that I felt would 
be associated. And we were already trying hard enough to get 
our (c)(3), so we were being held in--in limbo.
    Mr. Jordan. I'm just talking the personal, emotional side 
of things.
    Ms. Engelbrecht. But on the personal and emotional side, it 
was--it was terrifying.
    Mr. Jordan. Yep.
    Ms. Engelbrecht. And I didn't see it coming, because I knew 
what--what our motives were, and that was just to get citizens 
to engage in the electoral process.
    Mr. Jordan. Since you were just starting a local tea party 
group.
    Ms. Engelbrecht. Yes, just starting a local group to say, 
you know, we are not enough volunteers in the polls. Let's 
encourage people to volunteer.
    Mr. Jordan. When you filled out that application and sent 
it in, did you even----
    Ms. Engelbrecht. No.
    Mr. Jordan. Never crossed your mind, did it?
    Ms. Engelbrecht. No.
    Mr. Jordan. No idea this was going to happen?
    Ms. Engelbrecht. No.
    Mr. Jordan. And suddenly, the heavy arm of government, as 
Ms. Holmes Norton talked about, is all over the Engelbrecht 
family.
    Ms. Engelbrecht. Yeah.
    Mr. Jordan. Right?
    Ms. Engelbrecht. Yes. But I'll say, if I may, one of the 
quotes that I held dearest during that time was from Deitrich 
Bonhoeffer, who said not to act is to act and not to speak is 
to speak, and that is what made me realize that I had to stand 
up and speak, because I would suspect very similar to what the 
churches try to do when they get together collectively and 
speak out in defiance of the Johnson amendment.
    Mr. Jordan. Yep. I imagine there were some pastors in your 
neighborhood who saw what you were going through, and they had 
to kind of wonder, man, maybe I better tone it down a little 
bit next Sunday, right?
    Ms. Engelbrecht. Without question.
    Mr. Jordan. I mean----
    Ms. Engelbrecht. Without question.
    Mr. Jordan. I mean, pastors won't--they're going to preach, 
but some of them, it was probably in the back of their mind, 
I'm guessing.
    Ms. Engelbrecht. Absolutely. Or other group leaders who 
would come up to me and say, I don't--I don't want to go 
through what you're going through. We're going to shut this 
thing down.
    Mr. Jordan. Right. And you weren't the only conservative 
group around the country who was----
    Ms. Engelbrecht. No. One of hundreds.
    Mr. Jordan. There were hundreds.
    Ms. Engelbrecht. One of hundreds.
    Mr. Jordan. Hundreds.
    Ms. Holcomb, I bet you've had clients who had to go through 
the same kind of experience Ms. Engelbrecht went through, 
right?
    Ms. Holcomb. We most certainly have. And, again, we hear 
from pastors all across the country who are fearful of going 
through that process.
    Look, we can't trust the IRS with emails. What are we doing 
trusting it with our fundamental First Amendment freedoms?
    Mr. Jordan. All right.
    Mr. Raskin, we're going to give you the last word, and you 
can have as much time as you want.
    Mr. Raskin. Mr. Chairman, thank you so much. And this has 
been a very clarifying hearing. I want to thank Mr. Hice 
especially for his comments. And I want to start with that.
    Mr. Hice is very reassuring to me. He disclaims any 
interest in creating a divine dark money loophole in the law. 
This is not about being able--George Soros being able to 
channel millions of dollars from a not-for-profit through 
churches or synagogues or mosques into politics, it's not about 
allowing the Koch brothers to put hundreds of millions of 
dollars into churches on an anonymous, undisclosed basis in 
order to make that money tax deductible.
    Okay. So everybody agrees that--at least some of you--do 
all of you agree you'd have no problem with an amendment to his 
bill saying that nothing here assures any--nothing here gives 
anybody the right to put any money into a church for the 
purposes of spending it on a political campaign? Would all of 
you agree?
    Ms. Ancalle. Sure.
    Ms. Holcomb. Absolutely.
    Mr. Raskin. Yeah.
    Ms. Engelbrecht. With all due respect, I think that 
separation of church and State just means that the government 
should stay out of churches, and I think the churches should be 
able to do what they want to do and the way they want to do it 
in the moral fiber of that church and the leaders of the 
church, and all of the religious institutions should be--should 
be allowed to do what they want to do.
    Mr. Raskin. Okay. So if I'm a church, I'm the Jim Jones 
Church, whatever his church was called. I can have people give 
me millions of dollars in money that's tax deductible for them 
and I'm tax exempt, and then I can go out and say, let's elect 
Ms. Holcomb to Congress or let's defeat Ms. Holcomb for 
Congress, and there's no problem with that. And I can recruit 
people to give me money for those purposes. Is that right, just 
in your view?
    Ms. Engelbrecht. I would say that I would hope that the 
true north of any religious institution or nonprofit would 
stand clear in their----
    Mr. Raskin. But it's up to them. We agree under the First 
Amendment, they define their religion any way they want. I've 
got the religion of dark money. That's my religion. In America, 
you can create whatever religion you want, right? So my 
religion is I want to collect dark money and put it into a 
campaign and save my donors having to pay taxes on it. So 
that's okay on your view. I understand Ms. Ancalle's not there. 
I think--I don't--I think Ms. Holcomb's with me on this. I 
think Rabbi Saperstein's with me on this. You would like an 
amendment which says we're going to prevent a dark money 
loophole from emerging. But you think that that's guaranteed by 
the First Amendment?
    Ms. Engelbrecht. I recognize this is a difficult situation, 
but in my experience, less government is always better.
    Mr. Raskin. Let me ask you about your situation, because 
I--forgive me. I had another meeting and I missed it, but 
you're not a church. Your 501(c)(3) is secular, right? There's 
nothing religious about it, right?
    Ms. Engelbrecht. Correct.
    Mr. Raskin. Okay. So whatever rights you're asserting for 
yourself, either constitutionally or as a matter of policy, 
would go for United Way or Harvard University or Liberty 
University, right? In other words, Harvard University could 
say, not only do we think we've got the smartest people in the 
country here, we're going to take money out of Harvard's 
corporate treasury, which is, I think, $17 billion now, and put 
it into political campaigns to support people for President or 
U.S. Senate or Governor, and you've got no problem with that, 
right? You think that's the right as a 501(c)(3) organization?
    Ms. Engelbrecht. I do not profess to be an expert on 
whether or not repealing the Johnson amendment would have such 
a global impact on----
    Mr. Raskin. I'm asking your views about 501(c)(3) 
organizations, which are charitable, religious, and 
educational. And yours is charitable, right, or is it 
educational?
    Ms. Engelbrecht. Well, it's a little bit of both, but, 
yeah.
    Mr. Raskin. Okay. But you're asserting for yourself the 
right to collect money to put into political campaigns, to get 
politically active, and that would apply also for the United 
Way----
    Ms. Engelbrecht. Right.
    Mr. Raskin. --Harvard University, Howard University, every 
university in the country, which traditionally have been 
totally nonpolitical and nonpartisan. Now, they can have 
someone come and speak like from the pulpit at graduation, and 
it could be President Trump, it could be President Obama, what 
have you, nobody's revoking their 501(c)(3) status for making a 
political statement there, right? That's offering a little 
micro speech forum, but it's another thing to take money out of 
the corporate treasury of the university and put it into 
politics. But you think that's their First Amendment right. I'm 
just trying to clarify here intellectually.
    Ms. Engelbrecht. Again, with all due respect, I recognize 
that this is a multifaceted discussion. I think fundamentally 
that less government is better. And if we want to point the 
finger of abuse, I think the finger should be pointed directly 
at the Internal Revenue Service.
    Mr. Raskin. I agree. Then you might be talking about 
administrative abuse--I don't know what the facts are; I'd love 
to get more about them--but that's administrative abuse and 
harassment, but that's different from what the law is. We've 
got to determine what the law is going to be, right?
    Ms. Engelbrecht. I----
    Mr. Raskin. Would you agree, for example, that government 
itself cannot spend money on political campaigns? Like, we 
don't want the Department of Education or the Department of 
State going out and spending money in Raskin for Congress or 
Meadows for President. Would you agree to that?
    Ms. Engelbrecht. I believe the government should govern 
itself, yes.
    Mr. Raskin. Okay. Well, so the First Amendment doesn't 
guarantee somebody who's in government the right to spend money 
in that way, and I don't think it guarantees the right of a 
not-for-profit corporation, which collects tax deductible 
contributions and itself is tax exempt, to participate in 
politics. And that's basically the line that was drawn with the 
Johnson-Eisenhower amendment back in the 1950s that we've had. 
And it's never been struck down. And most people think that it 
tracks perfectly the separation of church and State. And 
nothing that I've heard disproves that, but I want to ask a 
tough question for Rabbi Saperstein.
    Do ministers and rabbis and imams and, you name it, do they 
have a right or do they not have a right to go through their 
whole theological disquisition on whatever it might be, Easter 
or Passover, you name the holiday, and then say, and therefore, 
everybody should vote for Donald Trump for President? Can they 
say that or can they not?
    Rabbi Saperstein. They have a free speech right to say 
that.
    Mr. Raskin. They have a First Amendment right to say that.
    Rabbi Saperstein. Right.
    Mr. Raskin. And do you know of any cases where they're 
being put in jail for doing that or the 501(c)(3) status of the 
church is being revoked for doing that?
    Rabbi Saperstein. Again, the Pierce Creek Church and the 
Branch Ministries case, which they took out a full page ad----
    Mr. Raskin. They took out an ad. That was spending, right?
    Rabbi Saperstein. But I don't know of anyone----
    Mr. Raskin. Okay.
    Rabbi Saperstein. --who's facing that----
    Mr. Raskin. This to me isolates the critical issue. Okay. I 
would have a serious problem with the IRS or any other 
government entity entering a church and dissecting someone's 
sermons or trying to castigate or chase them or punish them for 
saying something, even if it's something that's political, and 
therefore, everybody go vote on Tuesday against Donald Trump or 
for Donald Trump. I just--you know, and--I've got a problem 
with that. But I think that the vast majority of the American 
people have accepted the idea that churches should not be 
political slush funds, and we should not be able to take tax 
deductible money given to churches for charitable and 
educational purposes and put directly in a political campaign.
    And I haven't heard anything today--and I'll close with 
this: If anybody wants to convince me why churches or Harvard 
University or any other, United Way, should be involved in our 
political campaigns on the money basis.
    Rabbi Saperstein.
    Rabbi Saperstein. Yeah. I just want to be sure, Mr. Hice, I 
don't know if you were out of the room when I was very clear 
about this. The money issue I was dealing with on the broader 
question of the repeal of the Johnson amendment, I exclusively 
said that your bill is aimed at obviating that. Although I 
would ask you, under the Buckley v. Valeo and Citizens United 
case, thread of cases that says that campaign money is 
expressive conduct that is deserving of constitutional 
protection here, if you open the door to free speech in the--in 
the churches with tax deductible money, does that then become 
another form of expression, another form of speech here that--I 
certainly think we will get lawsuits to that effect from 
people. So even there, I have concerns, but I explicitly 
differentiated your----
    Mr. Raskin. Just to reclaim my time for a second, if I 
might. I mean, the Hobby Lobby case dangerously opens the idea 
that churches are political organizations, and that's why I 
wanted to make sure that everybody, with the exception of Ms. 
Engelbrecht, believes that the 501(c)(3) exemption should 
stand. Because if it doesn't, understand what's going to 
happen. The moment that you say that churches are just like the 
Democratic Party or the Republican Party or any other political 
organization, it might last for a year or two, it might be 
great for the churches that want to do it, but then everybody's 
going to say, well, why are they tax exempt, and why can people 
give money to them on a tax deductible basis? Because all the 
money's going to start to flow in that direction. I'd be an 
idiot to give my money, $100 to the Democratic Party instead of 
giving it to the Unitarian Church and let them spend it that 
way if they had the right to do it, you see.
    So that's why I assume all of these churches and religious 
organizations are saying, no, don't go there, be aware what you 
wish for.
    Rabbi Saperstein. I explicitly raise that fear and concern. 
We have special protections in the religious community and in 
the houses of worship that other entities don't have, a number 
of exemptions on the basis we are not like everyone else; only 
we have an establishment clause that affects the religious 
entities of this country. And if you start asking to be treated 
like everyone else in this regard, we really endanger those 
exemptions. So I'm very glad that you raised that issue.
    Ms. Holcomb. Mr. Chairman, if I may.
    Mr. Hice. [Presiding.] Please.
    Ms. Holcomb. Thank you.
    Well, Mr. Raskin, I just wanted to say, I'm delighted to 
hear that it sounds like we agree on the fundamental premise 
that the IRS should not be censoring pastors' sermons. And 
that's really relieving to me, because that's really all that 
the Free Speech Fairness Act is going to do, again, is just 
create that free speech valve, and it allays--it should allay 
your concerns about campaign finance law, because it doesn't 
touch it.
    Mr. Raskin. Well, that's what you're saying, but that's not 
what the language of the bill says at this point. The reason 
why everybody's talking about dark money is because the way 
it's written is it completely opens up a vast reservoir of 
divine dark money to pour into the political process. But 
you're saying that's not the purpose here.
    Ms. Holcomb. Respectfully----
    Mr. Raskin. And I understand that the sponsor's not saying 
that. So that's all a question of draftsmanship in the 
legislation.
    Ms. Holcomb. Respectfully, all the language of the bill 
actually does, it says within the ordinary course of your 
ministry and as long as it incurs no more than de minimus or 
incremental expenses, which is an extremely common phrase----
    Mr. Raskin. But what if my ministry----
    Ms. Holcomb. --in tax law, easy to apply----
    Mr. Raskin. Ms. Holcomb, let me ask you, what if my 
ministry--see, in America, we have such radical, expansive, 
wide open, robust freedom of religion, that everybody can 
define their religion as they please, right? And what if my 
ministry is my theology tells me I've got to get involved in 
politics however I can, and then we repeal the Johnson 
amendment, and so suddenly we say, I can take all of the money 
that's coming in to me and go spend it in a campaign, because 
that's what my theology tells me to do?
    Ms. Holcomb. Under the Free Speech Fairness Act, they're 
going to have a really rough time of it, because it's only de 
minimus expenditures, again, and only speech that can be done 
in the ordinary course of their normal ministry.
    This is not a cataclysmic event. We're simply talking about 
a relief valve for free speech.
    Mr. Jordan. Mr. Chairman----
    Mr. Raskin. Okay.
    Mr. Jordan. --I just want to let the record show that the 
professor, who's not a member of either subcommittee, got more 
time than anyone else, and we appreciate----
    Mr. Raskin. I'm very grateful for it----
    Mr. Jordan. --you being here.
    Mr. Raskin. --being a professor and all. Thank you very 
much.
    Mr. Hice. I'd like to thank our witnesses for taking time 
out of your schedule to be with us here today, we deeply 
appreciate it, and for all the participation from the 
committees.
    We're good? All right.
    If there's no further business, without objection, the 
subcommittee stands adjourned.
    [Whereupon, at 12:38 p.m., the subcommittee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
